APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS AT ISSUE
Order of the Supreme Court of Colorado
(March 18, 2021) ................................................. 1a
Order of United States District Court for the
District of Colorado (August 16, 2020) .............. 3a
Order of United States District Court for the
District of Colorado Denying Motion to
Reconsideration (October 2, 2020) ................... 17a
Order: Reply in Support of Motion for Leave to
Amend and Supplement w/Attach
(November 17, 2020) ........................................ 20a
UNDERLYING OPINIONS AND ORDERS
Orders Re Drexler’s Motion to Dismiss Protection
Order and Motion for Attorney Fees
(February 14, 2018) .......................................... 22a
Permanent Civil Protection Order Issued Pursuant
to § 13-14-106, C.R.S.
(February 14, 2018) .............................................. 45a
Order on Appeal of the District Court
(September 19, 2016)........................................ 54a
Order of the Denver County Court, Protection
Order (October 27, 2015) .................................. 69a
Findings and Order to Supplement Protection
Order and Order to Respondent to Relinquish
Firearms and Ammunition
(October 27, 2015) .......................................... 102a

APPENDIX TABLE OF CONTENTS (Cont.)
OTHER DOCUMENTS
Affidavit of Compliance With Firearm and
Ammunition Relinquishment Order
(October 27, 2015) .................................... 105a
Notable Essay Awards, Best American Essays
and Essays of Petitioner................................. 107a

App.1a
ORDER OF THE SUPREME COURT
OF COLORADO
(MARCH 18, 2021)
COLORADO SUPREME COURT
________________________
REGINA T. DREXLER,

Plaintiff-Appellant,
v.
HONORABLE THERESA SPAHN,
HONORABLE CHELSEA MALONE,
DENVER COUNTY COURT, AND CITY AND
COUNTY OF DENVER,

Defendants-Appellees.
________________________
Supreme Court Case No: 2020SA393
Appeal from the District Court
City & County of Denver, 2020CV30610
Upon consideration of the Notice of Appeal,
together with the briefs, the appellant’s request for
oral argument, and the record filed herein, and now
being sufficiently advised in the premises,
IT IS ORDERED that the decision of the Denver
District Court is AFFIRMED.

App.2a
Because the Court has resolved the appeal on
the briefs, appellant’s request for oral argument is
now MOOT.
BY THE COURT, EN BANC, MARCH 18, 2020.

App.3a
ORDER OF UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
(AUGUST 16, 2020)
DISTRICT COURT, CITY AND COUNTY OF
DENVER, COLORADO
________________________
REGINA T. DREXLER,

Plaintiff,
v.
HON. THERESA SPAHN,
in her official capacity, ET AL.,

Defendants.
________________________
Case Number: 2020CV30610
Division: CV
Courtroom: 203
Before: Brian R. WHITNEY, District Court Judge.
THIS MATTER comes now before the Court on
Defendants’ Hon. Theresa Spahn, Hon. Chelsea
Malone, Denver County Court and City and County of
Denver (“Defendants”) Motion to Dismiss Regina T.
Drexler’s (“Ms. Drexler”) claims, filed on June 18, 2020.
Ms. Drexler filed her Response on July 23, 2020. Defendants filed their Reply on July 30, 2020. The Court has
reviewed the Motion, the Response, the Reply, and the
applicable law. For the following reasons, Defendants’
Motion is GRANTED.

App.4a
PROCEDURAL HISTORY
In 2015, Denver County Court Judge Spahn issued
a Permanent Protection Order (“PPO”) against Ms.
Drexler in favor of Ms. Brown. The PPO was continued in 2018 by Denver County Court Judge Malone
with a related award of attorneys’ fees. As of February
14, 2020, Ms. Drexler is statutorily permitted to
apply to the County Court for modification or dismissal of the PPO. Instead, Ms. Drexler seeks habeas
relief in this Court, seemingly attempting to prolong
litigation and continue to access Ms. Brown.
STANDARD OF REVIEW
“Motions to dismiss for failure to state a claim
are disfavored and should not be granted if relief is
available under any theory of law.” Colorado Ethics
Watch v. Senate Majority Fund, LLC, 269 P.3d 1248,
1253 (Colo. 2012) (en banc). Indeed, a motion to dismiss
under Rule 12(b)(5) serves merely to “test the formal
sufficiency of the complaint.” Dorman v. Petrol Aspen,
Inc., 914 P.2d 909, 911 (Colo. 1996). Dismissal is
appropriate only where the factual allegations in the
complaint, taken as true and viewed in the light most
favorable to the plaintiff, do not present a right to relief
above the speculative level or provide plausible grounds
for relief. See Warne v. Hall, 373 P.3d 588 (Colo. 2016)
(adopting the Twombly/Iqbal plausibility standard).

App.5a
ANALYSIS
I.

Habeas Relief Is Inappropriate
A. Habeas Relief Is Inappropriate Because
Another Form of Relief Is Available

Ms. Drexler alleges claims under C.R.C.P. 106(a)
(1) and C.R.S. § 13-45-102. Rule 106(a)(1) provides:
Relief may be obtained in the district court
by appropriate action where any person not
being committed or detained for any criminal
or supposed criminal matter is illegally confined or restrained of his liberty.
§ 13-45-102 provides, in relevant part:
When any person not being committed or
detained for any criminal or supposed criminal
matter is confined or restrained of his
liberty under any color or pretense whatever,
he may proceed by appropriate action . . . in
the nature of habeas corpus.
Given the orders’ purported restraints on individual liberty, Ms. Drexler urges that the “plain and
unambiguous” statutory meaning allows the Court to
grant habeas relief where a person is restrained of
liberty in any civil matter, as is allegedly the present
case. The Court disagrees. Ms. Drexler neglects to
consider relevant Colorado case law. “Habeas corpus
is an appropriate remedy to redress an unlawful
restraint of one’s liberty when no other form of relief
is available.” Kailey v. Colorado State Dep’t of Corr.,
807 P.2d 563, 566 (Colo. 1991). “However, relief by
way of habeas corpus is not available when other legal

App.6a
remedies exist . . . ” Murray v. Henderson, 964 P.2d
531, 533 (Colo. 1998).
Nowhere in the Response does Ms. Drexler
attempt to persuade the Court that no other form of
relief is available. Rather, Ms. Drexler misplaces her
focus on the District Court’s ability to grant habeas
relief, which is only true when no other form of relief
is available, as was so clearly stated above by the
Colorado Supreme Court in Kailey and Murray.
The language of C.R.S. § 13-14-108 is determinative. § 13-14-108(4) states that the issuing court retains
jurisdiction “to enforce, modify, or dismiss a temporary
or permanent protection order.” Further, § 13-14-108
(2)(b) provides Ms. Drexler the opportunity to apply to
the court for modification or dismissal of the PPO as
of February 2020. Therefore, the availability of a legal
remedy under C.R.S. § 13-14-108 precludes habeas
relief.
B. Habeas Relief Is Inappropriate Because Ms.
Drexler Fails to Allege Plausible Allegations
That the Orders or PPO Violate Her First
Amendment Rights
Ms. Drexler then argues that habeas is proper
redress to the issuing court’s purported First Amendment violations. Resp. at 19. She argues that the
County Court Order in 2015 unconstitutionally
punished Ms. Drexler’s protected speech by characterizing it as “intimidation,” “efforts to access,” “efforts to
make/maintain contact,” and “retaliation,” amounting to
a “pattern of domestic abuse” supporting the issuance
of the protective order. The State “has no power to
restrict expression because of its message, its ideas,
its subject matter, or its content.” Reed v. Town of

App.7a

Gilbert, Ariz., 576 U.S. 155, 163 (2015). Government
regulation of speech is content based if a law applies
to particular speech because of the topic discussed or
the idea or message expressed. Id. “[S]tandards of
permissible statutory vagueness are strict in the area
of free expression.” Keyishian v. Bd. of Regents of Univ.
of State of N. Y., 385 U.S. 589, 604 (1967). To survive
a motion to dismiss under C.R.C.P. 12(b)(5), “the factual
allegations of the complaint must be enough to raise
a right to relief ‘above the speculative level,’ and
provide ‘plausible grounds’” for relief. Warne v. Hall,
373 P.3d. 588, 591 (Colo. 2016).
Ms. Drexler’s claims fail to reach any level of
plausibility. The record demonstrates that neither the
PPO, the February 2018 Order, nor the March 2018
Fee Award were impermissibly based on Ms. Drexler’s
exercise of her First Amendment rights. Nothing in the
PPO or Orders prohibits Ms. Drexler from publishing
written materials. Moreover, the Orders do nothing
to preclude Ms. Drexler from bringing credible claims
to the courts. The PPO merely forbids Ms. Drexler
from contact with Ms. Brown; it does not otherwise
intrude on her protected First Amendment Activities.
Furthermore, both the 2016 and 2018 PPOs have
been reviewed by the District Court, which found in
both instances that the PPOs do not intrude on Ms.
Drexler’s First Amendment Rights. Exs. D and E to
Defs. Mot. to Dismiss. Ms. Drexler’s habeas claims
decline to surpass the speculative level and fail under
Warne v. Hall.

App.8a
II. Request for Mandamus Relief Is Properly
Dismissed
Ms. Drexler vaguely requests the District Court
to compel the County Court to discontinue enforcement
of the PPO and March 2018 Fee Award. “Rule 106
(a)(2) contemplates that the court may compel a judicial
or administrative body to perform an act which the
law specifically requires or enjoins.” Widder v. Durango
Sch. Dist. No. 9-R, 85 P.3d 518, 526 (Colo. 2004). “Mandamus lies to compel the performance of a purely
ministerial duty involving no discretionary right and
not requiring the exercise of judgment. It does not lie
where performance of a trust is sought which is
discretionary or involves the exercise of judgment.”

Bd. of Cty. Commis of Cty. of Archuleta v. Cty. Rd.
Users Ass’n, 11 P.3d 432, 437 (Colo. 2000).

There is a three part test which must be satisfied
by a plaintiff before mandamus will be issued by the
court: (1) the plaintiff must have a clear right to the
relief sought, (2) the defendant must have a clear duty
to perform the act requested, and (3) there must be
no other available remedy. Gramiger v. Crowley, 660
P.2d 1279, 1281 (Colo. 1983). As stated above, Ms.
Drexler has the option under C.R.S. § 13-14-108(2)(b)
to apply to the County Court for modification or dismissal of the PPO as of February 2020. The availability
of this remedy renders mandamus relief improper.
III. Requests for Void Relief Are Properly Dismissed
C.R.C.P. 60(b)(3) requires a court to set aside a
judgment if it is void. First Nat’l Bank v. Fleisher, 2
P.3d 706, 714 (Colo. 2000). “Generally speaking, a
judgment is void if the court lacked personal jurisdiction
over the parties or subject matter jurisdiction over

App.9a
the cause of action, or if it was entered in violation of
a party’s procedural due process rights to notice or to
be heard.” L & R Expl. Venture v. Grynberg, 271 P.3d
530, 533 (Colo. App. 2011). “The judgment must be
‘one which, from its inception, was a complete nullity
and without legal effect.’” Nickerson v. Network Sols.,
LLC, 339 P.3d 526, 529 (Colo. 2014). “In the interest
of finality, the concept of void judgments is narrowly
construed µand does not include irregular or erroneous
applications of law.’” Arvada 1st Indus. Bank v.
Hutchison, 15 P.3d 292, 294 (Colo. App. 2000).
A. Purported First Amendment Violations
Ms. Drexler claims that the orders violate her First
Amendment rights because the orders are purportedly
overbroad in their restriction of protected activities.
Ms. Drexler relies on Crosby v. Bradstreet Co., 312
F.2d 483, 485 (2d Cir. 1963) to support her claims. The
Second Circuit in Crosby dealt with an extremely broad
order that “restrained the defendant from publishing
any report, past, present or future, about certain
named persons.” Id. The order enjoined a credit rating
service from ever publishing any report or statement
concerning the business activities of a businessman
or his brother. See generally, Id. The Second Circuit
found that because the order was not directed solely
to defamatory reports, comments, or statements, and
was instead directed towards any statements, it was
overly broad and violated the First Amendment. Id.
at 485.
Judge Spahn’s October 2015 Order clearly demonstrates the Court’s unwillingness to direct restraints
towards all of Ms. Drexler’s statements. Ex. F to T.A.C.
at 28; 1-3. Instead, the scope of the orders are tailored

App.10a
towards precluding patterns of abuse, such as manipulation and intimidation. Id. at 28; 25. Therefore,
the orders are not overbroad and this request is
properly dismissed.
B. Void for “New Findings”
Ms. Drexler argues that Judge Malone made
improper “new findings” of stalking in the February
2018 order. The February 2018 order states, in relevant
part,
[Judge Spahn] made clear findings that
Drexler did in fact stalk or attempt to stalk
Brown as defined by the criminal code. Judge
Spahn’s findings are clear in light of the
totality of the court’s findings and the issuance of the permanent protection order which
was sought for stalking.
Ex. K to T.A.C. at p.5 ¶ 14. The Order itself clearly
indicates that Judge Malone merely used Judge
Spahn’s 2015 findings to resolve the issue before her
in 2018—whether dismissal of the PPO was appropriate. Because Judge Malone made no new findings,
Ms. Drexler’s argument that the County Court lacked
jurisdiction to do so is moot. For these reasons, Ms.
Drexler’s claim that this order is void for “new findings”
is properly dismissed.
C. Void for Lack of Imminent Danger
Ms. Drexler asserts that the finding of imminent
danger in the 2015 temporary order was baseless
and consequently, the PPO is void. On the contrary;
it appears Ms. Drexler’s claim is baseless. “A finding
of imminent danger to the protected person is not a

App.11a
necessary prerequisite to the issuance of a permanent
civil protection order.” C.R.S. § 13-14-106(1)(a). Because
the finding or absence of imminent danger is not a
controlling prerequisite to a PPO, the validity of the
current PPO is not bound to a finding of imminent
danger. Regarding the validity of the 2015 temporary
order, the Colorado Court of Appeals in Martin v.
Arapahoe County Court noted that a lack of imminent
danger does not deprive a court of jurisdiction to
hear the case:
We do not read as jurisdictional the statutory
provision stating that “[a] temporary civil
protection order may be issued if the . . .
magistrate finds that . . . an imminent danger
exists to the life or health of one or more
persons.” § 132142 104.5(7)(a). Insufficient
evidence of a fact necessary to enter an
order or judgment does not generally deprive
a court of jurisdiction to hear the case.
405 P.3d 356, 360 (Colo. App. 2016).
Following Martin, the Court finds that even if
Judge Spahn’s finding of imminent danger was baseless, it did not deprive the County Court of jurisdiction
to issue the temporary order. For these reasons, this
claim is properly dismissed.
D. Void for Lack of Jurisdiction to Make Fee
Award
Ms. Drexler claims that the County Court lacked
jurisdiction to make a fee award because it failed to
make “requisite findings under C.R.S. 13-17-102, 1317-103 or controlling case law.” T.A.C. at ¶ 129; see
also Id. at ¶ 145-47. However, as previously pointed

App.12a
out by the District Court, this assertion is belied by
the 2018 Orders themselves. Ex. E to Mot. to Dismiss
at 12-17. “[A] court’s error in interpreting or exercising
a statutory grant of jurisdiction is not equivalent to
acting with total want of jurisdiction.” King v. Everett,
775 P.2d 65, 66 (Colo. App. 1989). The court in King
found that even an erroneous award of damages did
not render it void under C.R.C.P. 60(b)(3). Following
King, the Court finds Ms. Drexler’s claims that the
County Court lacked authority or jurisdiction to
award the fees irrelevant to the issue of whether the
orders are void.
Ms. Drexler further claims that Ms. Brown’s
awarded fees of $25,000 issued in the February 2018
Order by Judge Malone violated due process because
it was ordered without hearing. Ms. Drexler cites
Pedlow v. Stamp, 776 P.2d 382, 384 (Colo. 1989) in
support of her conclusion that “when requested, a
hearing on a fee request is required.” Resp. at 28.
Ms. Drexler appears to have miscited Pedlow, because
the Court does not find support for this proposition
in the opinion where Ms. Drexler claims it lies. Nonetheless, even if this proposition stands true, Ms. Drexler
does not attempt to allege in her Response that she
did in fact request a hearing. Moreover, the February
2018 Order indicates that Ms. Drexler received notice
and seven days to answer, giving her the opportunity
to be heard. Ex. K to T.A.C. The Court therefore finds
that the February 2018 Order does not violate due
process.
E. Void for Fraud on the Court
Ms. Drexler’s assertion of fraud on the court is
properly filed under C.R.C.P. 60(b)(2). Under C.R.C.P.

App.13a
60(b)(2), Ms. Drexler’s claim fails under the terms of
the rule, which requires that such a motion must be
brought “not more than 182 days after the judgment,
order, or proceeding was entered or taken.” Ms. Drexler
initiated this action on February 13, 2020, which was
two years after the issuance of the February 2018
Order and over 23 months after issuance of the March
2018 Fee Award. It is therefore an untimely challenge
to the Orders under C.R.C.P. 60(b)(2) and is properly
dismissed.
F. Void for Judicial Bias
Ms. Drexler asserts that the orders are void for
judicial bias. To disqualify a judge based on judicial
bias there must be sufficient facts “from which it may
reasonably be inferred that the respondent judge has
a bias or prejudice that will in all probability prevent
him or her from dealing fairly with the petitioner.”

Smith v. Dist. Court for Fourth Judicial Dist., State
of Colo., Div. 6, 629 P.2d 1055, 1056 (Colo. 1981). Ms.

Drexler bases her claims on Judge Spahn’s statements
that Ms. Brown’s counsel was credible and that she
found sufficient basis to grant the temporary protection
order based on statements by counsel. This statement
alone does not support a reasonable inference that
Judge Spahn had a bias or prejudice that prevented
her from dealing fairly with the petitioner. Instead,
Judge Spahn’s statements most likely reflect her
personal opinion, which is not bias.
Neither do Judge Spahn’s and Judge Malone’s
determinations evidence bias. “Judicial rulings alone
rarely constitute a basis for bias or prejudice.” Edmond
v. City of Colorado Springs, 226 P.3d 1248, 1252 (Colo.

App.14a
App. 2010). For these reasons, Ms. Drexler’s claims
relating to judicial bias are properly dismissed.
G. Request for Injunctive Relief Is Properly
Dismissed
Ms. Drexler requests injunctive relief to prevent
further restraint of her First Amendment rights. As
discussed above, the orders do not unconstitutionally
restrain Ms. Drexler’s First Amendment rights.
Therefore, her request for injunctive relief is properly
dismissed.
H. Request for Declaratory Relief Is Properly
Dismissed
Ms. Drexler attempts to frame this claim as
seeking declaratory relief finding that, under their
applicable statutes, the orders and fee awards generally
cannot be violative of First Amendment rights. T.A.C.
at ¶¶ 197-99. However, Ms. Drexler’s declaratory relief
claim seeks a determination that the specific orders
issued in her case are unlawful as allegedly violative
of her First Amendment rights. The Court agrees
with Defendants that Ms. Drexler cannot use C.R.C.P.
57 to circumvent the District Court’s determinations
finding these constitutional challenges to be without
merit. The Court also agrees that it is not the purpose
of declaratory relief to end run around prior judicial
determinations with which one disagrees or to provide
new determinations to guide future judicial decisions.
Therefore, Ms. Drexler’s request for declaratory relief
is also properly dismissed.

App.15a
IV. Request for Relief for § 1983 Constitutional
Violations Is Properly Dismissed
Ms. Drexler asserts a claim under 28 U.S.C. § 1983
against Judge Spahn and Judge Malone in their
official capacities and against Denver. “A suit against
a municipality and a suit against a municipal official
acting in his or her official capacity are the same.”
Watson v. City of Kansas City, Kan., 857 F.2d 690,
695 (10th Cir. 1988). To survive summary judgment
on her § 1983 claim, Ms. Drexler must first identify a
municipal policy or custom that caused her injuries,
and she then must show that the policy or custom
was enacted or maintained with deliberate indifference
to an almost inevitable constitutional injury. Harte
v. Bd. of Commis of Cty. of Johnson, Kansas, 864
F.3d 1154, 1195 (10th Cir. 2017). As stated above in
§§ IB and IIIA, however, Ms. Drexler fails to state a
plausible claim that either Judge Spahn or Judge
Malone violated her First Amendment rights. Because
no constitutional injury has occurred, Ms. Drexler
cannot show that any Denver policy or custom was
enacted or maintained with deliberate indifference to
a nonexistent constitutional injury. Thus, this claim
is properly dismissed.

App.16a
CONCLUSION
For the aforementioned reasons, Ms. Drexler’s
claims are DISMISSED in their entirety, and
Defendants’ Motion to Dismiss is GRANTED.
SO ORDERED this 16th day of August, 2020.
BY THE COURT:
/s/Brian R. Whitney
District Court Judge

App.17a
ORDER OF UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO DENYING
MOTION TO RECONSIDERATION
(OCTOBER 2, 2020)
DISTRICT COURT, CITY AND COUNTY OF
DENVER, COLORADO
________________________
REGINA T. DREXLER,

Plaintiff,
v.
HON. THERESA SPAHN, ET AL.,

Defendants.
________________________
Case Number: 2020CV30610
Division: 203
Before: Brian R. WHITNEY, District Court Judge.
The motion/proposed order attached hereto:
DENIED IN PART.
The Plaintiff moves under Rule 59 for reconsideration of this Court’s prior order. The Plaintiff asserts
that the Court made legal errors in reaching its conclusion. While the Plaintiff has demonstrated that
she disagrees with the Court’s legal analysis, she has
not demonstrated clear legal error.

App.18a
Specifically, the Court’s opinion in passing that
the habeas proceeding could be an attempt to prolong
litigation was. at best an observation, and in no way
relied on for findings. Thus it could not be error.
Further, the Court is now even more convinced
that an alternate remedy to habeas relief not only exists, but has not been fully pursued. That is, the
argument provided now focuses the existence of an
alternative remedy and merely argues about its timing
and availability. While the timing and availability may
have some issue to the viability of habeas proceedings,
in this case it did not. This Court’s prior ruling is not
in error and the Plaintiff has failed to demonstrate
how it was.
The Court also stands by its determination that
no plausible demonstration of infringement of 1st
amendment rights was shown and, in fact, on reargument, still has not been shown. What does exist
is conclusory legal statements, unfounded. These are
and were insufficient to support the pleading pursuant
to Warne.
Finally, the Court correctly applied King v. Everett, 775 P.2d 65, 66 (Colo. App. 1989) in its analysis
of the County Court attorney fee issue. The Court can
find no error in its ruling.
While the motion to reconsider is denied, the
Plaintiff has requested amendment of the pleadings.
The Court is not making any ruling on that motion
as it is not ripe. The viability of the potential amendment remains an open question and denial of the
reconsideration does not affect that determination. The
parties are to fully brief the request to amend the
pleadings.

App.19a
/s/Brian R. Whitney
District Court Judge

Issue Date: 10/2/2020

App.20a
ORDER: REPLY IN SUPPORT OF MOTION
FOR LEAVE TO AMEND AND
SUPPLEMENT W/ATTACH
(NOVEMBER 17, 2020)
DISTRICT COURT, CITY AND COUNTY OF
DENVER, COLORADO
________________________
REGINA T. DREXLER,

Plaintiff,
v.
HON. THERESA SPAHN, ET AL.,

Defendants.
________________________
Case Number: 2020CV30610
Division: 203
Before: Brian R. WHITNEY, District Court Judge.
The motion/proposed order attached hereto:
DENIED.
This matter comes before the Court on Plaintiff
Ms. Drexler's Motion, filed on September 29, 2020,
for Leave to Amend and Supplement the Third
Amended Complaint. Defendants responded on October
18, 2020 and Plaintiff replied on October 25, 2020.
Having reviewed the Record and the applicable law,
the Court finds that this action cannot be saved by
amending the Third Amended Complaint. In these

App.21a
circumstances, allowing an amendment to the pleadings
would be improper “unless the original judgment is
set aside or vacated” under Rule 59 or 60(b). See
Wilcox v. Reconditioned Office Sys. of Colorado, Inc.,
881 P.2d 398, 400 (Colo. App. 1994). And, as noted,
the Court denied Ms. Drexler’s motion for reconsideration under Rule 59. Accordingly, Ms. Drexler’s Motion
is DENIED.
/s/Brian R. Whitney
District Court Judge

Issue Date: 11/17/2020

App.22a
ORDERS RE DREXLER’S MOTION
TO DISMISS PROTECTION ORDER AND
MOTION FOR ATTORNEY FEES
(FEBRUARY 14, 2018)
COUNTY COURT, CITY AND COUNTY OF
DENVER, COLORADO
________________________
RACHEL BROWN,

Petitioner,
v.
REGINA DREXLER,

Respondent
________________________
Cases 15W1242/15W1193
Courtroom 159
Before: Chelsea MALONE,
Denver County Court Judge.
THIS MATTER is before the Court on Ms. Drexler’s Motion to Dismiss the Permanent Protection
Order and Ms. Brown’s Motion for Attorney Fees.
This Court, having reviewed the case files, including
testimony presented on December 20, 2017, hereby
finds and Orders the following:
I.

Procedural History

1. Ms. Drexler applied for a protection order on
September 16, 2015 (15W1193). The Hon. Judge There-

App.23a
sa Spahn issued a temporary protection order on
allegations that Ms. Brown stalked, harassed, and
retaliated against Drexler for terminating their
relationship.
2. On September 28, 2015, this Court issued a
temporary protection order protecting Brown from
Drexler (15W1242). Brown described stalking, including
Drexler filing a protection order to gain access to
Brown.
3. Judge Spahn presided over a joined hearing
on October 15, 21, 23, and 27, 2015. On October 27,
2015, Judge Spahn denied Drexler’s permanent
protection order, closing case 15W1193. In 15W1242,
however, a permanent order entered that requires
Drexler to remain at least ten feet from Brown at all
times.
4. Drexler appealed. On September 19, 2016,
the Hon. Judge Karen Brody affirmed the issuance of
the protection order: “the findings of fact and conclusions of law are clearly articulated, and the basis for
the County Court’s judgment is apparent.” Order on
Appeal, 9/19/16: 4.1
5. The Colorado Supreme Court denied Drexler’s
Petition for a Writ of Certiorari on September 5,
2017. On December 1, 2017, Drexler filed a cert petition
in the United States Supreme Court, which has not
yet been granted or denied.
1 The district court reversed the firearm restriction imposed
against Drexler, because no facts existed supporting a finding
that Drexler and Brown had been “intimate partners” as
defined by the Brady Handgun Violence Prevention Act, 18 U.S.C.
921-922. Order on Appeal, 9/19/16: 6-7.

App.24a
6. On October 28, 2016, over a year after the
permanent order entered, Brown requested attorney
fees and costs in both 15W1193 and 15W1242. Brown
asserts Drexler’s claims were substantially groundless,
frivolous, and vexatious.
7. On November 14, 2017, Drexler filed a Motion
to Dismiss Protection Order claiming that the protection
order was never necessary: “[t]he protection order
against Drexler was based on a finding of a single
prohibited act of ‘Domestic Abuse,’ which claim was
not alleged by Respondent or tried against Drexler.
It related to a single argument between the parties
over their 10-year friendship . . . ” Brown objects and
requests Drexler now be ordered to remain 100 yards
from her at all times.
8. On December 20, 2017, this Court held an
evidentiary hearing on both parties’ motions. The
Court limited each party to one hour of evidence and
argument. The hearing lasted three hours and 38
minutes.
9. Since the inception of these cases, Drexler
has filed numerous lengthy motions including on
December 18, 2017: “Motion for Witness Telephone
Testimony and to Extend Hearing” totaling 26 pages
and on January 8, 2018: “Notice of (1) Good Faith
Withdrawal of Request for Fees Regarding Respondent’s Supplement and Bill of Costs (2) Correction and
Clarification of Hearing Testimony and Offers of Proof,
and (3) Request for Hearing Related to Respondent’s
New Request for Fees as Respondent (As May Be
Necessary)” totaling 27 pages.

App.25a
II.

Findings
Permanent Orders Hearing

10. Judge Spahn’s pointed findings from the
permanent orders hearing suffice to put the present
issues into context.
11. After considering days of testimony and other
evidence, Judge Spahn rejected as meritless Drexler’s
accusations that Brown had been stalking or harassing
Drexler. After Drexler terminated their relationship,
“[a]ll of the evidence supports that she’s [Brown’s]
the one that terminated the relationship and wanted
no contact with you [Drexler].” PRO Tr. 10/27/15, 15:57. The Court made numerous, clear, and unequivocal
findings:
So as far as that, that was set forth in your
temporary—I mean your verified complaint.
The Court is going to find that there was no
evidence to support that. PRO Tr. 10/27/15,
13:3-4, emphasis added.
There was no evidence to support that Ms.
Brown is following Ms. Drexler. PRO Tr.
10/27/15, 13:11-12, emphasis added.
It is clear to me that she [Brown] does not
want any contact with Ms. Drexler. Ms.
Drexler’s own evidence and her own actions,
and the emails, and everything that I read
confirm over and over and over again that
Ms. Brown does not want any contact with
Ms. Drexler. PRO Tr. 10/27/15, 13:14-19.
I also found—I think it’s even reasonable to
think after Ms. Brown has made it abundantly

App.26a
clear that Ms. Brown in any way would
want any contact, go by her house, would
try to follow her, I mean after listening to
days of testimony, I do not understand how
Ms. Drexler reaches that conclusion. PRO
Tr. 10/27/15, 13: 21-25-14:1, emphasis added.
. . . I just didn’t find there was any evidence
to support that Ms. Brown was repeatedly
following the Petitioner [Drexler] in this
first case that I’m dealing with. PRO Tr.
10/27/15, 14:13-16, emphasis added.
And there was no evidence to support that
that (sic) is going on at CU where you [Drexler] decided to go. PRO Tr. 10/27/15, 21:7-9,

emphasis added.

The Court is going to find that there really
was no evidence to support your [Drexler’s]
positions. There was no reason for this Court
to issue a temporary protection Order And
certainly there is no reason to make a protection order permanent. Ms. Brown is not
trying to intimidate you, follow you. There
is absolutely no reason for this Court to
have a protection order against Ms. Brown.
So the Court is going to deny your request
at this point that a protection order enter on
a permanent basis. PRO Tr. 10/27/15, 24:917, emphasis added.
After I went through all of your [Drexler’s]
evidence, I went through everybody’s testimony, I looked at all the documents, everything is contrary to the position that you take.
PRO Tr. 10/27/15, 20:6-9, emphasis added.

App.27a
At one point when Petitioner Drexler was
putting on her case I had some concerns
because I had not yet seen evidence to
support the issuing of the temporary protection order. . . . I really wanted to listen to all
of the evidence before the Court made up its
mind, but it just never changed. PRO Tr.
10/27/15, 34:6-9, 18-20.
12. Further, Drexler filed a meritless protection
order not for her own safety, but for the purpose of
gaining access to and victimizing Brown. This supported
the issuance of the permanent order against Drexler.
I have to say the way that the Petitioner
cleverly crafted the temporary protection
order really caused the Court some concern
when we were proceeding forward. The
Petitioner neglected to advise me that they
both had pending cases, and the Petitioner
neglected to advise me that they both had
no contact orders. It was very carefully
crafted, as Drexler does many things, she
carefully crafts many things. PRO Tr.
10/27/15, 9:9-16.
I wonder about the filing of this case. After I
heard days and days of evidence I really feel
like you used this court and this process to
once again have some sort of dysfunctional
access to Brown and stir up that flurry of
activity so you could be around her in a very
dysfunctional way. PRO Tr. 10/27/15, 19:2520:1-5.
All the things that you [Drexler] do to
maintain contact with her and to keep

App.28a
intimidating her I found quite surprising.
And again, I feel like the filing of this
temporary protection order was yet another
way for you to intimidate and to retaliate
against her. PRO Tr. 10/27/15, 30:22-25, 31:1.
13. Judge Spahn found no credible evidence to
support Drexler’s claims. By contrast, Judge Spahn
found Brown to be “very credible” and granted a permanent protection order in her favor. PRO Tr.
10/27/15, 25:5-6.
Drexler authored and read a non-fiction piece
about Brown to parents at Stanley British Primary,
Brown’s son’s school. The Court found the reading
“supports that you [Drexler] have an obsession with
her [Brown].” PRO Tr. 10/27/15, 16:20. Brown tried
to disengage, even by retaining a lawyer and sending
a cease and desist letter to Drexler. Drexler’s own
evidence “overwhelmingly” supported that Drexler
was unable to get past Brown distancing herself.
PRO Tr. 10/27/15:17. Even as Brown retreated, Drexler
continued to seek out Brown in “very dysfunctional
ways.” PRO Tr. 10/27/15, 18:6-7. For instance, Drexler
sought mediation with Brown, sought to depose Brown
on a matter not involving Brown, followed Brown to
her house, enrolled as a student at CU where Brown
teaches, and travelled to Brown’s gym in hopes of
crossing paths with her. Drexler’s pattern of behavior
was designed to “manipulate and to intimidate” Brown
and “rises to domestic abuse.” PRO Tr. 10/27/15,
28:23-25, 29:1.
I think she’s [Brown] traumatized by the
years of you [Drexler] not stopping your
calculating behavior. And the evidence

App.29a
corroborates her [Brown] testimony. It really
does. PRO Tr. 10/27/15, 25:7-9.
I think the evidence supports that you
[Drexler] have a very unhealthy obsession
and fixation on Ms. Brown. You are very
calculating, you are very smart. You are
very careful how you go about things. You’re
smart enough not to make any direct contact,
but you do whatever you can to have access
to her. PRO Tr. 10/27/15, 28:10-18.
You’re [Drexler] doing whatever you can to
control her, to make her life uncomfortable,
to make her feel stress, to intimidate her.
PRO Tr. 10/27/15, 29:1-3.
14. Judge Spahn found “I’m going to find that it
is clear to me that she [Brown] has been traumatized
and suffering and stressed for years, as has her
family. I would find that you repeatedly have tried to
make some form of contact, whether — although it’s
very dysfunctional, very calculating, and that any
reasonable person would suffer emotional distress,
and she [Brown] has suffered emotional distress. I
felt like some of the things that you did I thought I
would — I mean any reasonable person would feel
emotional distress.” PRO Tr. 10/27/15, 29:21-25, 30:1-4.
Judge Brody noted that “the [trial] court found a
history of continued behaviors between the incident
at Brown’s house six years prior and the ultimate
filing for a protection order that warranted the issuance
of a permanent protection Order See R. Tr. 10/27/16,
p.31.” Order on Appeal: 5. Although Judge Spahn did
not use the specific language “serious emotional distress” as defined by C.R.S. § 18-3-602, she made clear
findings that Drexler did in fact stalk or attempt to

App.30a
stalk Brown as defined by the criminal code. Judge
Spahn’s findings are clear in light of the totality of
the court’s findings and the issuance of the permanent protection order which was sought for stalking.
15. Drexler repeatedly attempted to contact and
gain access to Brown for (at the time of the permanent
orders) seven years. The Court was troubled by
Drexler’s ongoing and obsessive pattern of behavior
and by Drexler’s belief that Drexler is the victim. “I
think you [Drexler] really think you’re the victim.
That’s very concerning to the Court. And I’m concerned
for her [Brown’s] safety and for this never ending.
PRO Tr. 10/27/15, 31:17-19.
16. Judge Spahn entered a permanent protection
order against Drexler in favor of Brown.
Hearing on Motion to Dismiss
17. At the December 20, 2017 hearing on Drexler’s Motion to Dismiss, Drexler maintained that
“this incident involves one argument between my
friend and I . . . I don’t’ even think she [Brown]
thought it was domestic abuse . . . There was no
allegation of an intimate relationship . . . ” Hrg.
12/20/17, 44:13-18. The Court specifically advised
Drexler or my purposes, though, I need to understand
what you believe your actions were that you are
willing to be accountable for so that I can factor that
in to whether this protection order needs to remain
in place . . . ” Hrg. 12/20/17, 107:22-25. Drexler insists
there has only been one incident of abuse or threat or
harm: “It was the only thing and it wasn’t physical
as between us. It was a door. She pushed the door
toward me. I pushed the door back. I was at her
house.” Hrg. 12/20/17, 49:21-25.

App.31a
18. Drexler refused to acknowledge stalking or
domestic abuse, stating “there were multiple findings
of attempts to contact. There was actually no finding
of stalking but attempts to contact . . . ” Hrg. 12/20/17,
109:2-4. Drexler “strongly” disagreed that the Court
made findings of stalking and domestic abuse. Hrg.
12/20/17, 109: 8.
19. The focus of Drexler’s testimony and pleadings
is: the permanent order was based on misleading and
erroneous evidence and Drexler is actually the victim.
Drexler’s denial goes so far as to continue to call herself “Petitioner” even in her Motion to Dismiss where
she is clearly the respondent. Drexler repeatedly
brought up Brown’s alleged “distortion campaign”
against her and how Drexler is in therapy to address
the “effects of narcissistic abuse” by Brown. Hrg.
12/20/17, 60:11-15.
20. Drexler testified at length about seeking
domestic violence therapy. After the Court asked
Drexler to clarify if she sought treatment as a victim
or offender, Drexler answered that her treatment
was as a victim of her former spouse, her mother,
and Brown. Drexler testified that domestic violence
offender therapy is therefore inappropriate for her as
a victim. The Court told Drexler that her therapy as
a victim for prior acts of domestic violence does not
establish that the protection order is now unnecessary
to protect Brown. Despite this, and after the hearing
had concluded, Drexler filed another pleading seeking
to introduce highly cumulative testimony from Sarah
Bjorndahl and Roxanne Thompson: that Drexler is a
victim of domestic violence and therefore therapy as
an offender is not appropriate. This conduct constitutes
a thinly veiled attempt to convince this Court that

App.32a
the original protection order was improperly granted
or seeks to convince this Court to reconsider the
original protection order even after Drexler has exhausted her appellate rights and the district court
upheld Judge Spahn’s Order.
21. Since the PRO was granted, Drexler has
withdrawn from UCD and now is enrolled in a
program in another state. Drexler believes she was
in close proximity to Brown two times since the PRO
and each time, Drexler left. The parties no longer
share the same community or schools for their children.
Drexler remains on a waiting list for a community
pool where Brown is a member. Drexler is no longer
working on Larimer Square, near UCD, but instead
will work on 17th Street.
22. During the hearing on December 20, 2017,
this Court repeatedly and specifically ordered equal
time limitations for presentation of evidence. Despite
this, after the hearing, Drexler filed a 27-page “Notice”
with additional argument, offers of proof, testimony,
affidavits and exhibits. On one hand, Drexler claims
that she wants all litigation to end and notes the
significant costs. On the other hand, Drexler continues
to reiterate the same points and makes every effort
to extend this litigation by filing lengthy pleadings
with additional evidence, and has even requested an
additional hearing.
23. As an example of how Drexler has needlessly
extended the litigation of this matter, Drexler requested
and was denied an extended hearing on her motion
to dismiss. In support of her request, Drexler sought
to introduce testimony from two therapists by phone:
her own therapist Sarah Bjorndahl and Roxanne
Thompson, therapist for her sons. Exhibit A contains

App.33a
10 pages of “misrepresentations” made to Judge Spahn
and essentially offers of proof as to what Bjorndahl
would seek to “correct.” None of these statements
addressed relevant factors for dismissal of the protection order under C.R.S. § 13-14-108, but instead
would have been presented to argue that the original
protection order was erroneously granted. Further,
Judge Spahn previously found Bjorndahl “to be
absolutely not credible” “for many reasons” including
that she was “extremely biased” and her opinions
were unsupported by evidence. PRO Tr. 10/27/15, 23.
Bjorndahl “did not influence this court, was not helpful to this court in absolutely any way.” PRO Tr.
10/27/15, 24:4-6.
24. Thompson’s affidavit was also attached the
Motion to Extend the Hearing. Nothing in Thompson’s
affidavit addressed relevant factors under C.R.S.
§ 13-14-108. Thompson’s proposed testimony related
to alleged trauma suffered by Drexler and her children
at the hands of Brown and her children.
25. Although the Court initially excluded Bjorndahl and Thompson, the Court allowed Drexler to
present her case as she wished. The case was
scheduled on 12/20/17 at Drexler’s request. Drexler’s
witnesses were not available and Drexler chose to
spend her allotted time presenting other testimony.
26. Brown was not present for the hearing and
did not present testimony from any other witnesses.

App.34a
III. Analysis
Drexler’s Motion to Dismiss Protection Order
27. Initially, this Court notes that the thrust of
Drexler’s Motion to Dismiss the Protection Order is
that Judge Spahn erred in granting it in the first
place. This claim was rejected on appeal by the district
court and the Colorado Supreme Court denied cert.
This Court is not at liberty to disturb what is res
judicata. To the extent that Drexler now argues the
PRO is no longer necessary, the Court finds as follows:
A. Legal Standards
28. Civil protection orders are necessary to prevent domestic abuse, which includes mental and
emotional abuse, and stalking. C.R.S. § 13-14-100.2(2).
“While stalking behaviors may appear innocuous to
outside observers, the victims often endure intense
physical and emotional distress that affects all aspects
of their lives . . . ” C.R.S. § 13-14-100.2(3). Domestic
abuse includes any act or attempted act of stalking
or harassment towards an intimate partner. C.R.S.
§ 13-14-101(2).
29. The party requesting dismissal of a permanent protection order must demonstrate “by a preponderance of the evidence, . . . that the dismissal is
appropriate because the protection order is no longer
necessary.” C.R.S. § 13-14-108(5).
30. In considering whether to vacate a permanent
protection order, the court shall consider all relevant
factors including (a)-(j) below. C.R.S. § 13-14-108(6).

App.35a
B. Analysis
31.
(a) Whether the restrained party has complied
with the terms of the protection order. The
evidence presented at the hearing shows
that Drexler has complied with the protection
order with the very notable exception of her
continued litigation. The protection order
restrains Drexler from harassing Brown. It
is apparent that just like her original TRO
filing, the purpose of Drexler’s ongoing litigation is to harass Brown. Drexler’s pleadings,
including her Motion to Dismiss, are vehicles
to reiterate her position as a victim, recite
trial evidence, and keep Brown looped in endless litigation. While Drexler is entitled to
exercise appellate rights and to file a motion
to dismiss, the tone of these pleadings
support the need for a permanent protection
order. “Generally, activities normally protected by the constitution will not be protected
when used for the purpose of harassment.

See, e.g., People v. Richardson, 181 P.3d 340, 345 (Colo.
App. 2007)(finding no constitutional protection for lawsuits filed to harass and cause serious emotional
distress).” Order on Appeal: 5.
32
(b) Whether the restrained party has met the
conditions associated with the protection
order, if any. No special conditions were
imposed.
33

App.36a
(c) Whether the restrained party has been
ordered to participate in and has completed
a domestic violence offender treatment program. The Court did not order treatment.
34
(d) Whether the restrained party has voluntarily
participated in any domestic violence offender
treatment program. In response to the Court’s
question, Drexler admitted that she has
sought treatment as a domestic violence
victim and not as an offender.
35
(e) The time that has lapsed since the protection
order was issued. The permanent protection
order has been in effect for just over two
years and three months.
36
(f)

When the last incident of abuse or threat of
harm occurred or other relevant information
concerning the safety and protection of the
protected person. Drexler argues that the
permanent protection order was supported
by a single act in 2009. Although this argument is contracted by the PRO hearing
record and was rejected by Judge Brody on
appeal, Drexler fixated on this argument in
her Motion to Dismiss as well as during her
testimony in support of her Motion to Dismiss. The record is clear that the 2009
incident outside of Brown’s home was but a
thread in the fabric of deeply concerning
stalking and harassing behavior that led

App.37a
Judge Spahn to issue a permanent protection
order.
37
(g) Whether, since the issuance of the protection
order, the restrained person has been convicted of or pled guilty to any misdemeanor or
any felony against the protected person,
other than the original offense, if any, that
formed the basis for the issuance of the
protection order. Drexler does not have any
criminal convictions.
38
(h) Whether any other restraining orders, protective orders, or protection orders have been
subsequently issued against the restrained
person pursuant to this section or any other
law of this state or any other state. No other
restraining or protective orders have since
been issued against Drexler.
39
(i)

40

The circumstances of the parties, including
the relative proximity of the parties’ residences and schools or work places and whether
the parties have minor children together. The
parties do not have children together. Brown
moved out of the neighborhood, so the parties
no longer live in close proximity. Brown is a
professor at UCD and Drexler is no longer
enrolled at UCD. Drexler is an attorney
with Ireland Stapleton Pryor & Pascoe P.C.
and in private practice.

App.38a
(j)

Whether the continued safety of the protected
person depends upon the protection order
remaining in place because the order has
been successful in preventing further harm
to the protected person. With the exception
of the ongoing litigation addressed above,
Drexler’s abusive behavior has ceased. As a
result of the PRO, Drexler removed herself
from UCD and the parties are mostly no
longer in the same communities. Drexler
continues to deny the harm she has caused
Brown and fails to acknowledge her
inappropriate behavior supporting the PRO.
The PRO has been successful in preventing
harm to Brown outside of litigation.

41. The permanent protection order must remain
in effect.
C. Attorneys’ Fees
42. “The court shall assess attorney fees if, upon
the motion of any part or the court itself, it finds that
an attorney or party brought or defended an action,
or any part thereof, that lacked substantial justification
or that the action, or any part thereof, was interposed
for delay or harassment or if it finds that an attorney
or party unnecessarily expanded the proceeding by
other improper conduct . . . As used in this article,
“lacked substantial justification” means substantially
frivolous, substantially groundless, or substantially
vexatious.” C.R.S. § 13-17-102(4) emphasis added.
43. A substantially groundless claim is one for
which the proponent has a valid legal theory but for
which no credible evidence is presented at trial. City
of Aurora v. Colorado State Engineer, 105 P.3d 595

App.39a
(Colo. 2004). See also W. United Realty v. Isaacs, 679
P.2d 1063, 1069 (Colo. 1984).
44. A substantially frivolous claim or defense is
one for which the proponent can present no rational
argument based on either law or evidence. Id.
45. “A vexatious claim is one brought or maintained in bad faith with the intention to annoy or
harass.” City of Holyoke v. Schlachter Farms R.L.L.P.,
22 P.3d 960 (Colo. App. 2001). See also Double Oak

Constr., L.L.C. v. Cornerstone Development Intern.,
L.L.C., 97 P.3d 140, 151 (Colo. App. 2003), cert. denied
(2004) (“attorney fees may be awarded if the losing
party has acted in bad faith or for oppressive reasons”
in the course of prosecuting or defending an action).

46. “An award of fees is an important sanction
against an attorney or party who improperly instigates
or prolongs litigation. In re Marriage of Aldrich, 945
P.2d 1370, 1378 (Colo. 1997).” City of Aurora v. Colorado State Engineer, 105 P.3d 595, 618 (Colo. 2004).
47. There is no constitutional protection for lawsuits filed or pursued to harass and cause serious
emotional distress. People v. Richardson, 181 P.3d 340,
345 (Colo. App. 2007).
48. Pursuant to C.R.C.P. 121, 1-22(a), C.R.C.P.
121, 1-22(b) applies to fees “requested pursuant to Section 13-17-102, C.R.S.”
49. C.R.C.P. 121, 1-22(b) provides that “[a]ny
party seeking attorney fees under this practice standard
shall file and serve a motion for attorney fees within
21 days of entry of judgment or such greater time as
the court may allow.” Several divisions of the Colorado
Court of Appeals have interpreted the language

App.40a
“or such greater time as the court may allow” as
“permitting a trial court to consider a bill of costs
[including attorneys’ fees] to be timely, even though
it was filed more than fifteen days after the entry of
judgment, because it was filed within ‘the time
allowed by the court.’” Parry v. Kuhlman, 169 P.3d 188,
190-91 (Colo. App. 2007) (Rule amended from fifteen
to 21 days after this case was decided). While a party
who delays filing her request for fees beyond the 21
days allowed by the Rule does so at her peril, Parry,
at 190-91, “a party’s failure to request an extension of
time does not preclude a trial court from considering
a request for an award of costs and fees which has
been filed beyond the [21]-day deadline.” Id., clarifying
Moyer v. Empire Lodge Homeowners’ Ass’n, 78 P.3d
313, 315 (Colo. 2003).
50. Drexler’s relentless persistence in litigating
(as petitioner) and relitigating (as respondent) her
underlying meritless case is precisely the type of excessive and abusive litigation that must be sanctioned
by attorney fees and costs. This is the exceptionally
rare case in which the Court would even entertain an
argument awarding fees against a petitioner in a civil
protection order filing. Drexler’s claims as both petitioner and respondent are substantially frivolous,
substantially groundless and substantially vexatious.
51. Judge Spahn noted a pattern of filing and
litigation used by Drexler to terrorize Brown, a pattern
which continues to this day. Drexler’s pleadings,
even those purportedly addressing attorneys’ fees
read like motions to reconsider the trial court’s findings. See e.g. Petitioner’s [Drexler’s] Reply to Response
to Motion to Dismiss and Petitioner’s Request to
Reject and Deny Supplement to Motion for Attorney

App.41a
Fees as a Matter of Law, at p.6 “the two UCD
witnesses presented by Respondent, the Department
Chair and the Title IX Coordinator, also misstated
known facts to the court,” and at p.7 “[t]he sheer
number of misrepresentations presented by Respondent at the hearing makes it impossible to address
them all.” See also Petitioner’s [Drexler’s] Objection
to Motion for Attorney Fees and Request for Denial
Thereof, filed Nov. 3, 2016, in its entirety.
52. Drexler has argued that Brown’s request for
attorneys’ fees should be denied as untimely, and
that argument exemplifies one aspect of this case
that is most troubling both substantively and regarding
Brown’s request for fees: The ongoing harassment of
Brown by Drexler, even with and in the context of
this litigation. The history of the relationship described
earlier herein demonstrates conclusively that Brown
has tried since 2009 to end her relationship with
Drexler and move on, but that Drexler simply will
not allow that to happen. Even six years later, after
the painful publication by Drexler of the essays
about their relationship, and after Drexler’s attempt
to invade Brown’s work life, it was Drexler who
initiated the protection order process, and Brown
who responded in defense. After four grueling days of
hearing, and the expenditure of thousands of dollars
in attorneys’ fees, a PPO entered against Drexler.
Brown hoped it was finally over, and so she did not
file for attorneys’ fees, preferring even then to try to
move on with her life. But again, Drexler dragged
her back, filing an appeal and a petition for certiorari.
Finally, Brown had had enough, and she filed her
motion for attorneys’ fees. Under these circumstances,
the Court finds that the time it took for Brown to file

App.42a
her motion for attorneys’ fees is “such greater time as
[this] Court may allow” pursuant to C.R.C.P. 121, 1-22
(b).
D. Modification of the Permanent Order
53. Judge Spahn was “on the fence” about how
to draft the protection order in a meaningful way,
not about whether the protection was necessary and
supported by a preponderance of the evidence. PRO
Tr. 10/27/15, 32:4-25. At the time the permanent
order entered, Drexler had enrolled as a student at
UCD, where Brown teaches, and Drexler conducted
business downtown on Larimer Square. The distance
between these locations is less than 100 yards. The
Court therefore reduced the distance Drexler must
remain from Brown from 100 yards to ten feet at all
times. Today, Drexler is no longer an enrolled student
at UCD, but is employed as an attorney with Ireland
Stapleton Pryor & Pascoe PC. in downtown Denver.
Brown requests the permanent protection order to be
modified to change the distance from ten feet to 100
yards at all times. The permanent protection order
will be re-issued in order to protect Brown while
teaching at UCD and to allow Drexler to continue
working without inadvertently violating the protection
Order.
IV. Conclusion
54. Drexler stalked Brown from 2008 until 2015,
and has continued to seek unhealthy access to Brown
through litigation of these cases. Even after the permanent protection order was issued and Drexler exhausted her appellate rights in Colorado, Drexler
continues to deny any wrongdoing on her part, except

App.43a
for expressing regret about going to Brown’s house
one time in 2009. Drexler does not accept accountability
for any of her other deeply concerning and manipulative
behaviors towards Brown, including repeated contacts
and attempted contacts directly and indirectly with
Brown which supported the issuance of the permanent
protection Order. Drexler repeatedly files motions
reiterating that she, Drexler, is actually the victim.
Each of these behaviors indicate that Drexler is
unable or unwilling to discern the difference between
appropriate and healthy behavior and such behavior
that requires the court to intervene with a permanent
Order for any one of these reasons and for any single
reason listed above, Drexler has failed to demonstrate by a preponderance of the evidence that the
protection order is no longer necessary. The protection
order must remain permanent to ensure Brown’s
safety, both physically and emotionally. The Court
respectfully DENIES Drexler’s Motion to Dismiss the
Permanent Protection Order
55. The Court is extremely reluctant to assess
fees and costs against a petitioner in a civil protection
order matter. As the Court stated at the Motion to
Dismiss hearing “[i]t would take a substantial amount
of evidence for me to assess fees against a petitioner
and even then I don’t know that I would.”
12/20/17, 39:3-4. This is, however, that rare case.
At the permanent protection order hearing, Drexler
failed to provide any evidence to support her claims
against Brown. Even more concerning is that Drexler,
a licensed attorney, requested a protection order for
the purpose of harassing and stalking Brown. The
courts cannot tolerate or ignore this misuse of the

App.44a
legal process. Therefore, the Court GRANTS Brown’s
Motion for fees and costs as respondent in 15W1193.
56. The Court GRANTS Brown’s Motion for fees
and costs as petitioner in 15W1242.
57. Within seven days, weekends included, Brown
may supplement and make current her request for fees
and costs. Drexler may respond to the supplemented
fees and costs amounts only within seven days,
weekend included, thereafter. The Court will issue a
written Order without a hearing on the matter.
58. Based upon changed circumstances, modification of the protection is appropriate. The permanent protection order is HEREBY AMENDED as
follows: The contact exception “ingress and egress”
shall be deleted. “UC Denver 1250 14th Street,
Denver” is an excluded location, with the exception
“Respondent is allowed on UCD campus only when
enrolled as a UCD student and at all times must
remain 10 feet from Petitioner and shall not attend
Petitioner’s lectures.” Respondent shall remain 100
yards from Petitioner except “Respondent must remain
at least 10 feet from Petitioner when commuting
directly to/ from and attending work.” At all times,
respondent is to remain 100 yards from petitioner’s
listed home addresses. All other requirements of the
permanent protection order remain the same.
DONE and SIGNED this 13th day of February,
2018.
BY THE COURT:
/s/ Chelsea Malone
Denver County Court Judge

App.45a
PERMANENT CIVIL PROTECTION ORDER
ISSUED PURSUANT TO § 13-14-106, C.R.S.
(FEBRUARY 14, 2018)
COUNTY COURT, CITY AND COUNTY OF
DENVER, COLORADO
________________________
RACHEL BROWN,

Plaintiff/
Petitioner,
v.
REGINA DREXLER,

Defendant/
Respondent
________________________
Cases 15W1242
Courtroom 170
Before: Chelsea MALONE, Denver County Court
Judge.
To Respondent/Restrained Person
DREXLER, REGINA
Date of Birth
04/16/1967
Sex
Female

App.46a
Race
White
Weight
118
Height
5’04”
Hair
Color Blonde
Eye Color
Green
Full Name
of Protected
Person

Date of
Birth

Sex

Race

BROWN,
RACHEL

03/28/1968

Female

White

WEAVER,
GEORGE

06/06/2002

Male

White

WEAVER,
HENRY

08/07/1999

Male

White

The Court Finds that it has jurisdiction over the
parties and the subject matter; that the Restrained
Person was personally served and given reasonable
notice and opportunity to be heard; that the Restrained
Person constitutes a credible threat to the life and
health of the Protected Persons named in this action;
and sufficient cause exists for the issuance of a Civil
Protection Order.

App.47a
The Court Finds that the Restrained Person is
not governed by the Brady Handgun Violence
Prevention Act, 18 U.S.C. § 922(d)(8) and (g)(8).
This Protection Order DOES NOT EXPIRE
and only the Court can change this Order. A
violation of a Protection Order is a crime
and may be prosecuted as a misdemeanor,
municipal ordinance violation, or a delinquent
act (if committed by a juvenile) pursuant to
§ 18-6-803.5, C.R.S., and municipal ordinance.
The Court Orders that you, the Restrained Person,
shall not contact, harass, stalk, injure, intimidate,
threaten, touch, sexually assault, abuse, or molest
the Protected Persons named in this action, or harm,
take, transfer, conceal, or dispose of or threaten
harm to an animal owned, possessed, leased, kept or
held by any protected party, a minor child of any
other party, or otherwise violate this Order. You
shall not use, attempt to use, or threaten to use
physical force against the Protected Persons that
would reasonably be expected to cause bodily injury.
You shall not engage in any conduct that would place
the Protected Persons in reasonable fear of bodily
injury.
1. Contact
It is ordered that you, the Restrained Person,
shall have no contact of any kind with the Protected
Persons and you shall not attempt to contact said
Protected Persons through any third person, except
your attorney,
●

except as follows: NO EXCEPTIONS

2. Exclusion from places

App.48a
You must keep a distance of at least 100 yards
from the Protected Persons, wherever they may be
found.
It is ordered that you be excluded from the following places and shall stay at least 100 yards away from
the following places: (Please specify address(es) where
the Protected Persons reside, work or attend school.)
●

Home: 6220 E 6TH AVE DENVER 80220

●

School: Name: UC DENVER Address: 1250
14TH ST. DENVER, CO

●

Other: 22097 HWY 6 (ST JOHNS CONDOS)
KEYSTONE, CO 80435

5. Other Provisions.
●

Fees shall be paid by the Defendant/
Respondent

The Restrained Person shall not interfere with
the protected person at the person’s place of employment or place of education and shall not engage in
conduct that impairs the protected person’s employment, educational relationships, or environment.
6. Mandatory For Domestic Abuse Protection
Orders:
●

It is further ordered that

RESP. IS ALLOWED ON UCD CAMPUS
ONLY WHEN ENROLLED AS A UCD
STUDENT AND AT ALL TIMES MUST
REMAIN 10FT FROM PETITIONER AND
SHALL NOT ATTEND PETITIONERS
LECTURES. IN ADDITION, RESP. MUST
REMAIN 100 YARDS FROM PET. AT ALL
TIMES EXCEPT WHEN COMMUTING

App.49a
DIRECTLY TO/FROM AND ATTENDING
WORK, AT WHICH TIME THE BUFFER
ZONE IS REDUCED TO 10FT.
●

This Permanent Protection Order is different
from the Temporary Protection Order and
requires service on the Restrained Party
before its provisions become effective.

By signing, I acknowledge receipt of this Order
or Restrained Person is not present in courtroom.
/s/ Sara Marks Baker
Plaintiff/Petitioner
2/14/18
Date
/s/ Chelsea Malone
Judge
Chelsea Malone
Print Name of
Officer

Judicial

2/14/18
Date
I certify that is true and complete copy of the
original order.
/s/
Clerk

App.50a
Date
2/14/18
Law Enforcement shall use all reasonable
means to enforce this Protection Order
IMPORTANT INFORMATION ABOUT
PROTECTION ORDERS
General Information
This Order or injunction shall be accorded full
faith and be enforced in every civil or criminal court
of the United States, Indian Tribe or United States
Territory pursuant to 18 U.S.C. § 2265. This Court
has jurisdiction over the parties and the subject
matter.
Pursuant to 18 U.S.C. § 922(g)(8), it is unlawful
for any person to possess or transfer a firearm who is
subject to a court order that restrains such person
from harassing, stalking or threatening an intimate
partner of such person or a child of such intimate
partner or person, or engaging in other conduct that
would place an intimate partner in reasonable fear of
bodily injury to the partner or child.
Notice to Restrained Party
A violation of a protection order may be a
misdemeanor, municipal ordinance violation or a
delinquent act (if committed by a juvenile) and is a
deportable offense. Anyone over the age of 18 who
violates this Order may be subject to fines of up to
$5,000.00 and up to 18 months in jail. Violation of
this Order may constitute contempt of Court. Anyone
under the age of 18 who violates this Order may be

App.51a
subject to commitment to the Department of Human
Services for up to two years.
You may be arrested or taken into custody without notice if a law enforcement officer has probable
cause to believe that you have violated this Order.
If you violate this Order thinking that the other
party or anyone else has given you permission, YOU
ARE WRONG. and can be arrested and prosecuted.
The terms of this Order cannot be changed by agreement of the parties. ONLY THE COURT CAN
CHANGE THIS ORDER.
Possession of a firearm while this Permanent
Protection Order is in effect, may constitute a Felony
under Federal Law, 18 U.S.C. § 922(g)(8).
You may apply to the Court for a modification or
dismissal of a protection order after two years from
the date of issuance of the Permanent Protection
Order per § 13-14-108(2)(b), C.R.S.
Notice to Protected Party
You are hereby informed that if this Order is
violated you may call law enforcement.
You may initiate contempt proceedings against
the Restrained Party if the Order is issued in a civil
action or request the prosecuting attorney to initiate
contempt proceedings if the order is issued in a
criminal action.
You cannot give the Restrained Party permission
to change or ignore this Order in any way. ONLY
THE COURT CAN CHANGE THIS ORDER.

App.52a
You may apply to the court for a modification or
dismissal of a protection order at any time, per § 1314-108(2)(a), C.R.S.
Notice to Law Enforcement Officers
If the Order has not been personally served, the
law enforcement officer responding to a call of
assistance, shall serve a copy of said order on the
person named/Restrained Person therein and shall
write the time, date, and manner of service on the
Protected Persons copy of such Order and shall sign
such statement. The officer shall provide the Court
with a completed return of service form. (§ 13-14107(2-3), C.R.S.)
You shall use every reasonable means to enforce
this Protection Order.
You shall arrest or take into custody, or if an
arrest would be impractical under the circumstances,
seek a warrant for the arrest of the Restrained Person when you have information amounting to
probable cause that the Restrained Person has violated
or attempted to violate any provision of this Order
subject to criminal sanctions pursuant to § 18-6803.5 CRS or municipal ordinance, and the Restrained
Person has been properly served with a copy of this
Order or the Restrained Person has received actual
notice of the existence and substance of such Order.
You shall enforce this Order even if there is no
record of it in the Protection Order Central Registry.
You shall take the Restrained Party to the
nearest jail or detention facility.

App.53a
You are authorized to use every reasonable
effort to protect the Protected Parties to prevent
further violence.
You may transport, or arrange transportation to
a shelter for the Protected Parties.

App.54a
ORDER ON APPEAL OF THE DISTRICT COURT
(SEPTEMBER 19, 2016)
DISTRICT COURT
CITY & COUNTY OF DENVER, COLORADO
________________________
REGINA DREXLER,

Plaintiff-Appellant,
v.
RACHEL BROWN.

Defendant-Appellee,
_____________________
RACHEL BROWN.

Plaintiff-Appellee,
v.
REGINA DREXLER

Defendant-Appellant,
________________________
Case Number: 15CV34373
Courtroom: 414
Before: Karen L. BRODY, Denver District Judge
Appellant Regina Drexler appeals the order of
the County Court issuing a permanent civil protection

App.55a
order in favor of Appellee Rachel Brown to be entered
against Ms. Drexler. After reviewing the parties’
briefs, the record on appeal, and applicable law, the
Court finds and orders as follows:
I. Issues Presented
Appellant presents three issues to the Court:
1. Whether the record on appeal is adequate
to review the order of the County Court;
2. Whether the County Court erred by considering improper evidence in issuing the permanent
civil protection order; and
3. Whether the County Court erred by entering an order prohibiting Ms. Drexler from possessing
or purchasing firearms.
II. Background
This appeal arises from a consolidated case in
the County Court in which Ms. Drexler and Ms.
Brown each sought a civil protection order for
protection from the other. Ms. Brown was granted a
temporary protection order on September 28, 2015.
R. Tr. 9/28/15, pp. 11-12. Ms. Drexler was granted a
temporary protection order on September 16,
2015. R. Tr. 9/16/15, p. 4. Both cases were then
consolidated into a single hearing that was held
October 15, 21, 23, and concluded on October 27,
2015.
The record reflects that Ms. Brown and Ms.
Drexler were prior friends and had a one-time
intimate encounter in 2008. R Tr. 10/15/15, p. 36.
Following that encounter, Ms. Brown attempted to
withdraw from friendship with Ms. Drexler. R. Tr.

App.56a
10/15/15, pp. 38-36. This triggered a seven year
history of Ms. Drexler’s attempts to contact Ms.
Brown and Ms. Brown’s attempts to retreat from
contact with Ms. Drexler. These interactions culminated in the filing of mutual verified complaints for
civil protection orders. The presiding judge made
findings of fact and conclusions of law on October
27, 2015 and issued a permanent civil protection
order to Ms. Brown requiring that Ms. Drexler stay
100 feet from Ms. Brown’s residence and at least 10
feet from her at all other times. R. Tr. 10/27/15,
pp. 32, 35. Ms. Drexler appeals this determination.
III. Standard of Review
The right to an appeal from the final judgment
of a county court is governed entirely by statute.
Bovard v. People, 99 P.3d 585, 588 (Cob. 2004).
Under C.R.S. § 13-6-310(2), the district court shall
review the case on the record on appeal and affirm,
reverse, remand, or modify the judgment; except
that the district court, in its discretion, may remand
the case for a new trial with such instructions as it
may deem necessary, or it may direct that the case
be tried de novo before the district court.
Pursuant to the Colorado Rules of County Court
Civil Procedure:
No trial shall be held de novo in the
district court unless the record of the proceedings in the county court have been
lost or destroyed or for some other valid
reason cannot be produced; or unless a
party by proper proof to the court establishes that there is new and material evidence unknown and undiscoverable at the

App.57a
time of the trial in the county court which,
if presented in a de novo trial in the
district court, might affect the outcome.
C.R.C.P. 411(d).
Where a district court is exercising its powers
of review rather than conducting trial de novo, it
cannot act as a fact finder. People v. Gallegos, 533
P.2d 1140, 1142 (Cob. 1975). The reviewing court “is
bound by the findings of the trial court which have
been determined on disputed evidence.” People v.
Brown, 485 P.2d 500, 517 (Cob. 1971). “The function
of the reviewing court is to correct any errors of
law committed by the trial court and not to try, nor
retry, issues of fact.” People v. Williams, 473 P.2d
982, 984 (Cob. 1970).
IV. Analysis
Appellant claims that the County Court erred by
considering improper evidence in making the
determination under C.R.S. § 13-14-104.5(1)(a) that
there were grounds for a permanent civil protections
order and by issuing an order banning Ms. Drexler
from possessing or purchasing a firearm under
C.R.S. § 13-14-105.5(1)(a)(I) because she does not
qualify for such a ban under the federal definition
of “intimate partner.” Opening Br. p. 11. In the alternative, Appellant argues that the court’s findings
of facts and conclusions of law are insufficient to
allow for appellate review. Id. This Court disagrees
with the Appellant’s characterization of the evidence
considered, affirms the County Court’s issuance of
the permanent civil protection order in favor of Ms.
Brown, and vacates the order banning Ms. Drexler
from possessing or purchasing firearms as improper

App.58a
under the plain language of the statute for the
following reasons:
A.

Insufficient Record

As an initial matter, Appellant argues—within
her argument on the consideration of improper
evidence—that the record on appeal is insufficient
for review because “it is not clear what the basis is
for the court’s finding that unless restrained Ms.
Drexler will continue to commit such acts or acts
designed to intimidate or retaliate against Ms.
Brown.” Opening Br. pp. 29-30. This argument fails.
All that is required of the record on appeal is
that the record be sufficiently clear in the findings
of fact and conclusions of law that the reviewing
court can have “a clear understanding of the basis
of [the] order.” Rocky Mt. Health Maint. Org., Inc.

v. Colorado Dept. of Health Care Policy & Financing
ex rel. Rizzuto, 54 P.3d 913, 918 (Colo. App. 2001).
This rule is complied with even when the findings
and conclusions “are brief and sparse in detail,” as
long as the reviewing court can determine “the basis
of the court’s judgment.” Manor Vail Condominium
Ass’n v. Town of Vail, 604 P.2d 1168, 1172 (Colo.
1980).
Here, the court first articulated the standard:
“And then what she has to show by a preponderance
of evidence . . . that unless restrained your behavior
will continue or you will continue to commit such
acts to intimidate and retaliate.” R Tr. 10/27/15, p.
30, II 7-12. Next, the court gave the factual basis
that met this standard, referencing the earlier
findings of fact articulated at the hearing:

App.59a
[Y]our [Ms. Drexler’s] attempt to make
contact with her or get access to her has
been going on for years . . . Seven years
since you had a one time intimate relationship . . . I’ve talked about all the evidence.
All the things that you do to maintain
contact with her and to keep intimidating
her I found quite surprising.
. . . And again, I feel like the filing of this
temporary protection order was yet another
way for you to intimidate her and to
retaliate against her.
You have—your behavior has been I think
obsessive. I also think that for some
reason I think you make yourself believe
that you’re justified and you make yourself
believe that you’re the victim, which actually is very concerning to the Court.
It is all of those reasons I think you can’t
control your behavior. Given the years of
continued contact that you’ve made, . . . if
you look at any one thing isolated it makes
sense. When you look at the pattern it’s
very concerning to the Court.
R. Tr. 10/27/15, p. 30, L 15-p. 31, L 12. Here, the
court referenced more than five pages of earlier
detailed findings of fact that were made from the
testimony of the witnesses and exhibits entered into
evidence. See R. Tr. 10/27/15, pp. 21-29. This record
is hardly brief or sparse in detail. This Court finds
the record adequate for review because the findings
of fact and conclusions of law are clearly articulated,

App.60a
and the basis for the County Court’s judgment is
apparent.
B.

Improper Evidence

Appellant claims that the trial court erred by
considering “empirical studies, data, and training
materials not presented at the hearing,” the essays
written by Ms. Drexler about her relationship
with Ms. Brown, “Ms. Drexler’s attempts to mediate
with and depose Ms. Brown,” and Ms. Drexler’s
2009 visit to Ms. Brown’s residence causing an
altercation between the two women. Opening Br.
p. 16. Appellant is incorrect. The County Court
articulated the proper standard for granting a
permanent civil protection order and made sufficient factual findings to meet that standard.
A permanent civil protection order may be
issued by the county court against a person for the
purpose of preventing assaults and threated bodily
harm, domestic abuse, and/or stalking among other
harms. C.R.S. § 13-14-104.5(1)(a). A hearing is
required for the issuance of a permanent civil
protection order. C.R.S. § 13-14-106(1)(a). At the
hearing, the judge is to examine the record and
the evidence, and may only issue the permanent
order upon a finding “by a preponderance of the
evidence that the respondent has committed acts
constituting grounds for the issuance of a civil
protection order and that unless restrained will
continue to commit such acts or acts designed to
intimidate or retaliate against the protected
person” Id.
The county court articulated the grounds for the
issuance of the permanent protection order as

App.61a
domestic abuse. R. Tr. 10/27/15, p. 28, L 19-p. 29,
L 3. C.R.S. § 13-14-101(2) defines domestic abuse for
the purposes of civil protection orders as:
[A]ny act, attempted act, or threatened
act of violence, stalking, harassment, or
coercion that is committed by any person
against another person to whom the actor
is currently or was formerly related, or
with whom the actor is living or has lived
in the same domicile, or with whom the
actor is involved or has been involved in
an intimate relationship. A sexual relationship may be an indicator of an intimate
relationship but is never a necessary condition for finding an intimate relationship.
Thus, the county court was merely required to make
sufficient factual findings to support that Ms. Drexler committed acts constituting domestic abuse
under this statutory definition and would continue
to commit such acts or other acts in intimidation
or retaliation.
First, Appellant speculates that the court’s findings “seem to be influenced by the court’s experience and training in domestic abuse and its knowledge of experts, empirical studies, data, and training
manuals.” Opening Br. p. 19. While judges acting
as finder of fact may not consider additional factual
information outside the record, they are not expected to ignore their professional and educational experience in making determinations. See Kendrick v.
Pippin, 252 P.3d 1052, 1064 (Colo. 2011) abrogated
on other grounds by Bedor v. Johnson, 292 P.3d
924 (Colo. 2013); see also People v. Holt, 266 P.3d
442, 444-45 (Colo. App. 2011); Destination Travel,

App.62a

Inc. v. McElhanon, 799 P.2d 454, 456 (Colo. App.
1990). Here, the judge made statements regarding
her training, education, and experience informing
her determination that Ms. Drexler’s “history falls in
line with somebody who is a domestic abuser.” R Tr.
10/27/16, p. 29, ll. 4-14. These statements were made
following the specific findings of fact that supported
her conclusion and ultimate determination to grant
the protection order. This was essentially extraneous
information that was not required as a finding under
the statutory guideline and was not in error.
Second, Appellant appears to argue that any
consideration of Ms. Drexler’s essays written about
her relationship with Ms. Brown or consideration of
attempts to mediate with or depose Ms. Brown
was improper as an infringement on constitutionally protected speech Opening Br. pp. 23-24. Generally, activities normally protected by the constitution will not be protected when used for the
purpose of harassment. See, e.g., People v. Richardson, 181 P.3d 340, 345 (Colo. App. 2007) (finding
no constitutional protection for lawsuits filed to
harass and cause serious emotional distress).
Appellee correctly notes that the County Court
declined to consider the essays as an act that was
grounds for a protection order, expressly stating:
I mean all those things I was reading
through and I thought this is mean. This
is to upset her life. And you can do that.
And if she were in here trying to get a
protection order for that I’d be telling her
no, you can’t have a protection order for
that. You need to move on and get over it.

App.63a
R. Tr. 10/27/16, p. 27, L 24-p. 28, L 4. Rather, the
court considered the essays as evidence of Drexler’s
ongoing obsession and fixation on Ms. Brown—the
essays were written approximately four years
after the end of the relationship—and thus relevant
to the likelihood of future harassing conduct absent
a protection order. See R. Tr. 10/27/16, pp. 15, 19,
27. Additionally, the court considered the attempts
to mediate with and depose Ms. Brown as similar
evidence of obsession and fixation, attempts to
harass Ms. Brown and have her in one place for a
confrontation. See R. Tr. 10/27/16, pp. 18-19, 2728. Thus, the court properly considered the essays
as well as the attempts to mediate with and
depose Ms. Brown as evidence of harassment.
Lastly, Appellant claims that the County Court
erred in considering an incident that occurred more
than six years before the complaint was filed. Opening Br. p. 26. Appellant cites no case law or statute
that bars the courts consideration of an incident
more than six years prior to the filing of the complaint in issuing a protection order. The cases from
other jurisdictions cited by Appellant are not
persuasive here because of the lack of evidence of
continued behavior between an incident warranting
a protection order and the filing of the complaint in
each of those cases that is present here. See Smith
v. Jones, 915 N.E.2d 260, 262 (Mass. App. 2009);
C.M. V. v. Ackley, 326 P.3d 604, 606 (Or. App. 2014).
Here, the court found a history of continued behaviors between the incident at Ms. Brown’s house
six years prior and the ultimate filing for a protection
order that warranted the issuance of a permanent
protection order. See R Tr. 10/27/16, p. 31. Thus,

App.64a
there was no error in the courts consideration of
this incident.
The County Court did not improperly consider
any evidence in reaching its determination that a
permanent civil protection order was warranted to
protect Ms. Brown from Ms. Drexler.
C.

Firearm Ban

Appellant argues next that the County Court
erred in issuing an order prohibiting Ms. Drexler
from possessing or purchasing firearms. Opening Br.
pp. 31-34. This argument hinges on Ms. Drexler and
Ms. Brown not being intimate partners under the
federal definition of “intimate partner” in 18 U.S.C.
§ 921(a)(32). A reviewing court examines issues of
statutory interpretation de novo. In re Marriage of
Fiffe, 140 P.3d 160, 161 (Colo. App. 2005).
When interpreting a statute, the statute should
be given effect according to its plain language. Id.
at 161, 162. Under C.R.S. § 13-14-105.5(1), a court
shall order that a person may not possess or purchase a firearm or ammunition while a protection
order is in effect “[i]f the court subjects a person to
a civil protection order pursuant to a provision of this
article and the protection order qualifies as an
order described in 18 U.S.C. sec. 922(d)(8) or (g)(8).”
The order described in 18 U.S.C. § 922(d)(8) is:
[A] court order that restrains such person
from harassing, stalking, or threatening an
intimate partner of such person or child of
such intimate partner or person, or engaging in other conduct that would place an
intimate partner in reasonable fear of

App.65a
bodily injury to the partner or child, except
that this paragraph shall only apply to a
court order that—
(A) was issued after a hearing of which such
person received actual notice, and at
which such person had the opportunity to
participate; and
(B)
(i)

includes a finding that such person
represents a credible threat to the
physical safety of such intimate partner
or child; or

(ii) by its terms explicitly prohibits the
use, attempted use, or threatened use
of physical force against such intimate
partner or child that would reasonably
be expected to cause bodily injury.
The order described in 18 U.S.C. § 922(g)(8) is:
[A] court order that—
(A) was issued after a hearing of which such
person received actual notice, and at which
such person had an opportunity to participate;
(B) restrains such person from harassing,
stalking, or threatening an intimate partner
of such person or child of such intimate
partner or person, or engaging in other
conduct that would place an intimate partner in reasonable fear of bodily injury to
the partner or child; and

App.66a
(C)
(i)

includes a finding that such person
represents a credible threat to the
physical safety of such intimate partner
or child; or

(ii) by its terms explicitly prohibits the
use, attempted use, or threatened use
of physical force against such intimate
partner or child that would reasonably
be expected to cause bodily injury.
Appellant argues that to qualify as an order
described in 18 U.S.C. § 922(d)(8) or (g)(8) it must
be an order protecting an intimate partner or child
of an intimate partner under the statute. Opening
Br. p. 32-33. Further, this federal statute defines
intimate partner as “the spouse of the person, a
former spouse of the person, an individual who is a
parent of a child of the person, and an individual
who cohabitates or has cohabited with the person.”
18 U.S.C. § 921(a)(32). Appellant correctly notes that
the Findings and Order to Supplement Protection
Order and Order to Respondent to Relinquish Firearms and Ammunition states findings according to
the language in 18 U.S.C. § 922(d)(8) or (g)(8) that
“Respondent represents a credible threat to
his/her intimate partner.” R. CF, Vol. I, p. 69.
There are no factual findings in the record
supporting that Ms. Drexler and Ms. Brown were
intimate partners as defined by the applicable federal
statute. Colorado’s civil protection order statutes
do not provide an independent definition of intimate
partner, though the definition of domestic abuse
covers those who have been involved in an intimate

App.67a
relationship which does not exclude a nonsexual
relationship. See C.R.S. § 13-14-101(2). Appellee
notes instances in which the Colorado legislature has
more broadly adopted federal law directing firearm
bans. Answer Br. p. 17. However, in contrast to the
statutory provision at issue here, the legislature in
those instances provided clear language deviating
from a strict federal definition. The legislature could
have added such a provision in this instance and it
should be presumed that this was intentional. See
State v. Nieto, 993 P.2d 493, 500-01 (Cob. 2000).
According to the plain language of C.R.S. § 1314-105.5(1), only those orders which qualify as orders
under the federal statute are subject to the mandatory entry of a firearm ban as was done in this case.
Under the applicable federal statute, Ms. Drexler
and Ms. Brown cannot be determined as intimate
partners because they have never cohabited. See 18
U.S.C. § 921(a)(32). Thus, the finding described in
the court’s order that Ms. Drexler was a credible
threat to her intimate partner cannot be supported.
See R CF, Vol. I, p. 69. The order of the County
Court prohibiting Ms. Drexler from possessing or
purchasing a firearm must be vacated.
V. Conclusion
For the reasons discussed above, the Court
AFFIRMS the County Court’s issuance of a permanent protection order in favor of Ms. Brown and
against Ms. Drexler, and VACATES the order
prohibiting Ms. Drexler from possessing or purchasing a firearm.
IT IS SO ORDERED on this Monday, September
19, 2016.

App.68a

BY THE COURT:
/s/ Karen L. Brody
Denver District Judge

App.69a
ORDER OF THE DENVER COUNTY COURT,
PROTECTION ORDER
(OCTOBER 27, 2015)
COUNTY COURT, COUNTY OF DENVER,
STATE OF COLORADO
________________________
In the Matter of
REGINA DREXLER,

Petitioner,
v.
RACHEL BROWN,

Respondent.
and
RACHEL BROWN,

Counter-Petitioner,
v.
REGINA DREXLER,

Counter-Respondent.
________________________
Case No. 2015 W 1242, DIV. 170
Case No. 2015 W 1193 DIV. 170
Before: The Hon. Theresa SPAHN, County Judge.

App.70a

[October 27, 2015 Transcript, p. 3]
THE COURT: Okay, we’re on the record.
The court is going—is on the record now—just
trying to get a little bit organized in two cases,
and that would be 15-W-1242 and also 15-W-1193.
They involve two parties, Regina Drexler and
Rachel Brown.
The court would ask for appearances for the record.
MS. MARKS-BAKER: Your Honor, Lara Marks-Baker
on behalf of Ms. Brown who appears at counsel
table.
MR.

MATTHEWS: And, Your Honor, Michael
Matthews on behalf of Petitioner Regina Drexler.

THE COURT: All right. The court will note for the
record it’s 12:38. I appreciate everybody showing
up in a kind of non-traditional time for the court’s
findings and order in both cases.
And before I get started, I want to just say to
both attorneys that both of you did a very good
job representing your clients.
There was a lot of evidence that was introduced
in this particular case. It really is more complicated
than most cases that we see come through 170.
There was a lot of evidence presented. You were
both professional with each other, and I very
much appreciate that.
The Court—I really have spent a lot of time going
through the evidence. As I said, we had numerous
exhibits that were introduced. I took very copious
and detailed notes of all of the witnesses who
testified and spent a lot of time going through

App.71a
their testimony and checking dates. So I just
wanted all the parties to know that.
This is a complicated case. I found both of these
cases to be very complicated and the Court is
going to enter an order—a finding and an order
in each case. I really tried to spend some time
organizing my thoughts and my notes so it makes
sense to everybody why I made the decisions that
I did.
But there’s just so much that it might seem a
little random at some times. But I think making
a clear record is really very important. So bear
with me.
Sometimes in this court when I enter orders
parties aren’t happy with them and tend to be
emotional. That’s not appropriate in this
courtroom. So if you can’t control your emotions
then I’m asking you to step outside and your
respective attorneys can stay—continue to sit
through the findings of fact by the Court.
I also appreciate that we were able just to
present evidence in both cases. We kind of
combined the cases together. A lot of evidence
that the Court considered in one case obviously
spills over and is evidence obviously the Court
considered in the other case. So again, that
makes things a little bit more complicated.
Usually I’m just entering findings of fact in one
case and not two cases. I don’t usually enter
mutual protection orders given the statute.
So the first case that I’m going to deal with
today is 15W1193, and that’s Regina Drexler v.
Rachel Brown. The Court is going to find that

App.72a
the temporary protection order was entered on
9/16/15 ex parte. Obviously we proceeded to
hearing in that case.
Looking back, obviously the statute—first of all,
it’s a civil case so it’s preponderance of evidence,
and the statute requires that the Court take into
consideration the record. That includes the verified
complaint.
When you look back at the verified complaint
Ms. Drexler basically asked that this court issue
a temporary protection order, and just to highlight,
because Ms. Brown was repeatedly following her.
She followed her in her car on 9/14. She—let me
make sure—she says she’s reported prior stalking
behavior on multiple occasions, then advises the
Court that most recently in connection with a
gender based stalking Title IX complaint the
University of Denver where she’s a student, and
that there’s a no contact order in effect at this
time.
Despite this Ms. Brown was following her at
approximately 11:00 a.m. near the intersection
of University and Evans on September 14th.
And then goes on to list in support of her petition
that the Title IX complaint against Rachel Brown
impairs her educational opportunities and relationships, that she— Rachel Brown became
involved with my ex-husband, Charles Bruce, in
connection with the termination of my marriage
and subsequent custody evaluations where she
engaged in conduct that adversely affected those
determinations, and in retaliation for termination of our intimate relationship disciplinary ac-

App.73a
tion was taken against her son, and she took action against her son.
So basically that was the evidence initially that
the Court considered when issuing the temporary
protection order. The Court also obviously
considered the testimony of all the witnesses,
there were numerous exhibits, and so the Court
took all of that into consideration.
At this phase, the Petitioner has to show that the
Respondent committed the acts that constituted
the grounds for the issuance of the temporary
protection order. And under the domestic
violence theory the Petitioner has to show that
there was an intimate relationship, and I think
all parties agree that there was a one time
intimate relationship.
And that the act, or attempted act of violence,
stalking, or—so domestic abuse is described as
any act, attempted act, or threatened act of
violence, stalking, harassment, or coercion that
is committed by a person against the other.
And then stalking is defined by 18-3-601, and
actually that’s a legislative declaration. I just
made some notes for myself. When you look at that
the declaration at the beginning of—18-3-601 is
the legislative declaration of stalking, and I
often look to that when I’m hearing cases where
there are allegations of stalking. I think it’s
appropriate just to give that legislative intent
some consideration today.
Stalking maintains—stalking is a serious problem.
A stalker will often maintain a strong, unshakable,
irrational, emotional feeling for his victim and

App.74a
may likewise the victim returns these feelings or
affection. The stalker often maintains the belief
that despite the trivial or non-existent basis for
it and despite rejection—efforts to restrict or—
and the victim—the stalker believes the victim will
return those feelings of affection if persistent,
despite the rejection and lack of reciprocation.
Then 18-3-602 actually is the elements of stalking,
and repeatedly makes any form of contact or
communicates and would cause a reasonable
person to suffer emotional distress and does in
fact cause emotional distress.
So that’s basically the first part of the permanent
protection order hearing. The Court has to be
able to find that there was a reason to issue the
temporary protection order, that there was domestic violence or stalking, and that there’s a B,
as well. That unless the Court permanently
restrains the party the Respondent will continue
such acts to intimidate and to retaliate. So both
A and B, that’s the way I describe it best, have
to have by a preponderance of evidence support
before the Court can issue a protection order.
You know, and I do note when I consider domestic
abuse and stalking, and I was looking at all of
this, the statute still at the temporary phase
requires that the Court may issue, if there’s a
credible threat that imminent danger exists to
life and health, so a lot of times I think people
think if there’s some sort of harassment they can
walk out of here with a temporary protection order.
It really is tied to coercive control, abuse,
intimidation. So there really is a safety issue. I

App.75a
tried to address that with counsel early on in the
beginning of this case.
Stalking goes on in the legislative declaration,
the elements itself, to talk about that stalking is
dangerous. That it is a severe intrusion. So I’m
just kind of making all these comments up front.
First, one of the critical issues that were raised
was the whole Title IX issue. I have to say the
way that the Petitioner cleverly drafted the
temporary protection order really caused the Court
some concern when we were proceeding forward.
The Petitioner neglected to advise me that they
both had pending cases, and the Petitioner
neglected to advise me that they both had no
contact orders. It was very carefully crafted, as
Ms. Drexler does many things, she carefully crafts
many things.
After listening to the two witnesses from UCD,
and I have to note those two witnesses were
independent witnesses, they were neutral, they
were not biased. I don’t think either one of them
wanted to be here and testify. It really kind of
helped shed some light on the whole Title IX
issue.
One thing I want to note too before I make
comments on it that I thought was very important
is that one of the witnesses testified—and I’ll get
to the details of that—that Regina Drexler provided detailed and voluminous information
through counsel prior to them reaching their
conclusions in the Title IX case, and that Ms.
Brown, I think, provided pretty—a very nominal
amount of information.

App.76a
I took—I literally took their quotes and took
notes as detailed as I could and there were two
witnesses from UCD, and again, I cannot stress
how credible I found both witnesses. They—I
watched their demeanor, they were uncomfortable,
they didn’t want to be here. I think like everything
else, everybody else, that has had to deal with
the two of you, including Stanley British Primary,
they probably wish that they weren’t dealing with
the issues that they’ve been dealing with.
I found them to be very credible, to be very
honest, to be very careful to make sure that they
were making proper statements and accurate
statements.
One of the witnesses, I think her name was— Nelia
Viveiros—she was basically the investigator, the
Title IX investigator. Some quotes that she said
that the Court took into consideration and found
compelling is that Ms. Drexler provided voluminous evidence in her case. Ms. Drexler wanted to
engage in mediation. Ms. Brown declined.
Ms. Brown initiated a Title IX at the suggestion
of legal. It was either legal or administrative. I
don’t think she wanted to get involved. She did
not—and she went on to say she did not want to
file the Title IX—and that’s Ms. Brown. She was
directed to the process. That was Ms. Brown
who was directed to the process.
It was also significant to the Court that Ms.
Brown, she said, volunteered to be removed so
Ms. Drexler could take the course. That she was
the teacher or the professor but she volunteered
to let somebody else teach it. She offered that

App.77a
solution once Ms. Drexler signed up for that class.
Ms. Brown endeavored to retreat every time. The
other thing that she said that in both cases
there was not sufficient cause to move forward in
either case, and that both cases were fully
investigated.
The other witness was the department Chair, and
I think it’s Kat Vlahos. Quotes that I pulled from
her testimony for today was that clearly Brown
was not involved in the admission process, that
Ms. Vlahos, who is basically Ms. Brown’s boss,
had no concerns about Ms. Brown’s behavior. She
never had any concerns about Ms. Drexler’s safety.
She also said that Ms. Brown offered to allow
someone else to teach the course so that Ms.
Drexler could take the course that was an
elective and not required and so that she would
not have to un-enroll. Ms. Brown offered to
withdraw from the zombie contest.
What was significant is that Ms. Vlahos made it
very clear that it was common knowledge, it was
well known that Ms. Brown teaches the course that
Ms. Drexler signed up for and was basically—I’m
using my own words—the administrator of the
zombie contest.
And the other thing is that the piece that I felt
was really significant to me, and really I think
undermined the credibility of Ms. Drexler is that
in September of 2014 Ms. Vlahos met with Ms.
Drexler to make sure she felt comfortable and
had a resource in the department and had that
relationship, and that’s been ongoing since September of 2014.

App.78a
When I listened to all of that testimony the Court
really is making the finding and determination
that you were never denied an opportunity for
the education and Ms. Brown was not trying to
interfere with you going forward at the University of Denver and taking your classes.
In fact, I think the University has bent over
backwards to make it so you can take your classes
and go forward and get your degree. I think Ms.
Brown has also once again—I think the theory of
their case is retreat—did not step in the way,
was willing to do anything so you could take your
class, including not teach anymore. I mean not
teach the one time when you would actually be
taking the class.
So as far as that, that was set forth in your
temporary—I mean your verified complaint. The
Court is going to find that there was no evidence
to support that.
The Court’s also going to find that you—when
you draft the complaint you say Ms. Brown
repeatedly followed me, and that caused the Court
concern. That is very intimidating, that is very
dangerous. The Court was really concerned when
the Court initially issued the temporary protection
order.
There was no evidence to support that Ms. Brown
is following Ms. Drexler. Like I said, there’s so
much overlap here it’s hard for me, but the Court
is going to find that first of all, I found Ms.
Brown very credible. It is clear to me that she
does not want any contact with Ms. Drexler. Ms.
Drexler’s own evidence and her own actions, and

App.79a
the emails, and everything that I read confirm
over and over and over again that Ms. Brown does
not want any contact with Ms. Drexler. I’ll go
into that in a little bit more detail in a few
minutes.
I also found—I think it’s even reasonable to
think after Ms. Brown has made it abundantly
clear that Ms. Brown in any way would want any
contact, go by her house, would try to follow her,
I mean after listening to days of testimony, I do
not understand how Ms. Drexler reaches that
conclusion.
I’m also going to find that on September 13th,
2015 when Ms. Drexler puts in the complaint that
she was followed by Ms. Brown, her husband, I
think it’s Tom Weaver, was very credible, it was
a completely inadvertent contact. It was clear
that she was playing tennis that day. I found
him to be very credible.
I found it to be credible that the other few
incidents that Ms. Drexler listed he was working
in the same neighborhood in Park Hill. I just
think that even though you now live on 6th Avenue
and you live in Park Hill, and your husband lives
in Park Hill, there’s been I’m sure times when
you’ve all passed by each other’s house, and I
just didn’t find there was any evidence to support
that Ms. Brown was repeatedly following the
Petitioner in this first case that I’m dealing
with.
As far as her trying to interject herself into the
custody evaluation, when I saw the email to Ms.
Drexler’s ex-husband I found it was very clear

App.80a
that they did not want any involvement in your
parental responsibility case. They did not want
to stir up anything that would cause you to be
back in their life, to retaliate. I thought that was
abundantly clear from the email that I read.
Certainly after you had, I think two PREs, you
can look at all of the notes, who they talked to,
who they didn’t talk to, and there was just no
evidence to support that in your petition either.
A lot of your testimony and your theory and your
evidence was that Ms. Brown was retaliating
because of the termination of your relationship.
All of the evidence supports that she’s the one
that terminated the relationship and wanted no
contact with you. If anybody between the two of
you had a hard time accepting the termination
of the relationship it was you, Ms. Drexler.
You went on to write two non-fiction stories. I
read both of them. I found them to be very mean
spirited. They were very well—I mean they were
great pieces. They were interesting. They were
great short stories, but they were mean. You disclose all the confidence and secrets that you both
had as friends and you did it publicly. I found
that those were very telling. Very telling about
what’s going on with you emotionally between
the two of you, and who is really suffering at the
loss.
The short stories, once again, you set forth in
there that you wrote that she terminated the
relationship. She terminated the relationship.
And I have to say in Landslide you never—you
literally say something like she never spoke to

App.81a
me again, or my sons. She would avoid me. There
were things never said. Think about all of those
words. Those fly in the face of you putting in a
verified complaint that she’s stalking you.
What I found—I couldn’t believe is that not only
did you publish these—I mean that’s fine, you
can publish them. You can write non-fiction short
stories is the best way I can describe it. She has
to get over it. She has to move on with her life. I
mean there’s nothing that you can do about it.
But I found it—although you have a good
explanation for everything, I found it rather
curious that it was published at her undergrad
—where she went to undergrad, but I’m going to
skip past that because you had a good excuse for
that.
But the one thing that was very telling is that
you took one of those—I can’t remember which one,
I think it was the second that you wrote about
the mannequins—and you read that at the school,
at Stanley British Primary where your children
both went to school in front of other parents.
First of all, that was once again, I think supports that you have an obsession with her. It
was very mean spirited, and when you keep
saying that she went to school and she was
basically saying negative things about you, saying
bad things about you, you are the person that
went to school and highlighted your relationship
in front of parents and your children. How do you
think your children felt about that?
I mean even if you only read parts of it, everybody
knew, right? That—when I heard that, I have to

App.82a
say that is not consistent with people who are
victims of domestic abuse or victims of stalking.
They are terrified. They do not want to do anything
to try to get the person who is stalking them or
abusing them to retaliate. That said so much to
me. That was so telling.
What also was very telling, just as I read through
your notes that you wrote to her attorney Foster
once he told you to cease and desist, and also I
think something that was very telling in your
2008 emails—or maybe they were text messages
that you kept every single one of. You say things
like you acknowledging she’s pulling away, you’re
distancing yourself. It’s shocking, it’s hurtful.
I’m not sure I can get past it.
I think that’s what really is going on here. I
think that’s really the dynamic. And your own
evidence overwhelmingly supports that. Her response in that email is very clear. Nicely and
politely she tells you to stop, it’s over.
The other evidence I thought that was very
compelling to the Court is that when you look at
it in this dynamic, who is retreating and who is
initiating contact at every turn? You attend the
school where she teaches. I know it’s the only
school that teaches or offers a degree in Architecture. Whatever, I’m sure that’s what you want
to do. But I found that very curious.
You want access to her through mediation because
you’re smart enough to know that you’ve received
a cease and desist letter now but you still want
access to her in very dysfunctional ways. When
they send a letter like look, just move on, at this

App.83a
point now she’s not just saying it in emails and
text messages, she’s saying it to a lawyer.
You want to mediate the Stanley British Primary
issue instead of just moving on, you want to
mediate after Foster, her lawyer, sends you a
letter. You want to mediate—that came out
through the two credible witnesses from UCD that
you wanted to mediate the Title IX case. You want
to depose her when you’re suing the soccer coach.
I mean all of those are where you’re trying to
get—to have some sort of contact with her in a
very I think dysfunctional way.
I also think this. All that went on at Stanley
British Primary—I can’t even imagine being the
administration dealing with the two of you. I’m
sorry, I’m just trying to be realistic. They’ve got
kids—they’re trying to do a good job and teach
kids at that school, all of that dysfunctional
flurry of activity I think that was some way for
you to maintain contact with her.
You wrote a letter—all of your behavior is not
consistent with somebody who is running away
trying to be safe, trying to make sure that they
don’t have any contact. You wrote a letter to
Tom, I think it was 10/22/09.
You went to their house. I read it in your story.
You admitted it on the stand. You went to their
house. You admitted trying to come in the front
door. You signed up for her class. I believe you
knew that she was likely to be the professor.
You signed up and wanted to participate in the
zombie extracurricular activity that you knew
she would be overseeing. You sent a five page

App.84a
letter to Foster that I read through. You went to
her gym class that wasn’t even in your
neighborhood.
I mean all of that through the years is not consistent with behavior that is somebody who really
is a victim of domestic abuse or a victim of
stalking. Not to mention it is hard for you to
move on. You I think are really grieving the loss
of this relationship and I think it’s about four
years later, that’s when you start writing the
stories.
Once again, writing them, publishing them,
reading at a place where you both have your
children going to school, all of that is not consistent
with somebody who is a victim of domestic abuse,
and our statutes are meant to protect.
I wonder about the filing of this case. After I
heard days and days of evidence I really feel like
you used this court and this process to once again
have some sort of dysfunctional access to Ms.
Brown and stir up that flurry of activity so you
could be around her in a very dysfunctional way.
After I went through all of your evidence, I went
through everybody’s testimony, I looked at all
the documents, everything is contrary to the
position that you take. I mean at some point you
kind of had a couple of different themes running
on in your case but one of them obviously was
that she’s stalking you, she’s retaliating because
you broke up the relationship, and then in another
inconsistent way your theory of the case is she
told everybody I’m a dangerous lesbian, obsessive

App.85a
stalker—I don’t know how many times people said
that—and I’ve been excluded from my social circles.
That was a long—let’s say it happened. That was
a long time ago. It’s time for you to move on.
Even if that did happen, which I actually don’t
even think there’s enough evidence to support
that. We had the one lady who was your friend
say that—something like I wouldn’t hang out if I
were you with her, or I have a restraining order.
People come in here every single day and ask
that this court issue temporary protection orders
because somebody is being mean to them, or
they’re saying bad things about them, or it’s on
Facebook, or they’re disparaging them at work,
or school. That is not what protection orders and
this court are about. Especially somebody who is
smart and sophisticated and intelligent like you.
Make new friends. Get different play circles.
Volunteer.
I could—I was dumbfounded by that whole—
that you were excluded from your social circles.
And there was no evidence to support that that
is going on at CU where you decided to go.
Which is fine, you can do that.
I think there was one other email where you try
to show that Ms. Brown—one email out of—if the
kids were in soccer practice God only knows how
many hundreds of emails went out—where she
took you off because she wanted to get a shout
out to the families and the other kids. And it
made sense that she took you off. She doesn’t
want to have any contact with you. So what?
She can do that. I didn’t really understand how

App.86a
that helped your case. And then her husband hit
reply all. So it was one email where she took you
off.
The Court is going to find that the evidence supports that Ms. Brown is really the person who is
retreating. And October 23, 2009, her and her
husband make it clear they don’t want to talk to
you. She doesn’t want mediation. She said that
over and over again.
She relocated and moved and sold her house. She
took her son out of the school. She sent you a
cease and desist letter in 2009. She volunteered
to not teach a class and not be involved in the
zombie extracurricular activity. I’m just hitting
the highlights. I’m not even hitting everything.
I found Ms. Brown to be very credible. I watched
her, I watched her demeanor. I felt like—I have
to say there was one moment when she said—
when she learned that you signed up and were
taking classes—I can’t remember, it had
something to do with attending the university.
She pulled over her car and cried. I have to say if
I were her I would have pulled over my car and
cried too. Because now you’re going into—you’ve
managed to get into her work place. And there’s
nothing any of us can do about that. And you
will not let go. I would have pulled over and
cried too.
Your behavior is not consistent with somebody
who has suffered domestic abuse or stalking. As
far as your expert, that’s your therapist who was
qualified as an expert in distortion campaign,

App.87a
which is not a part of DSM. I think we’re in V.
It’s been a while since I thought about it.
I found that witness to be very caring. I think
she cares very much about you. She’s your
therapist. She is biased, as she should be. She
wants you to be the best that you can be. She’s
there to support you. But as far as her testimony,
I found her to be absolutely not credible. I have
never heard of anything like distortion campaign.
Basically that means somebody is being mean to
you. You’re grown adults. Like somebody is saying
bad things to you at Stanley British Primary I
think is what it is. And you needed all your therapy
for that? I mean I tell people every day move on.
Volunteer.
I found her not credible for many reasons. One,
she’s biased in your favor, which is fine. I understand that. She should be. She’s your therapist. I
found her extremely biased. I listened to her
testimony, the distortion campaign and Hitler
and everything else was— even if Ms. Brown—I
mean I don’t know what all was said at Stanley
British Primary but that’s what—she can say
those things about you. You can say whatever
you want about her. You do it. Not only do you
do it, but you publish it.
They were years ago and you’re still dealing
with it? There’s not even any sort of syndrome or
any evidence to support that distortion campaign.
She said you were passive. And there’s no evidence—I think all the evidence supports quite
the contrary. I think if anything, I hate to say
this but I think you’re very passive/aggressive.

App.88a
All of the evidence—I think she really believed
and was coming from a place—because all of her
information—and she admitted this—really comes
from you, as it should. But the independent evidence that the Court heard over several days did
not support distortion campaign.
I did not find her credible whatsoever. She did
not influence this court, was not helpful to this
court in absolutely any way. She did not assist
the trier of fact. If anything—well—
The Court is going to find that there really was
no evidence to support your positions. There was
no reason for this Court to issue a temporary
protection order. And certainly there is no reason
to make a protection order permanent. Ms. Brown
is not trying to intimidate you, follow you. There
is absolutely no reason for the Court to have a
protection order against Ms. Brown. So the Court
is going to deny your request at this point that a
protection order enter on a permanent basis.
Now I’m going to deal with the other case. The
Court is now going to enter its findings on
15W1242. Again, a lot of the evidence overlaps. I
have to say this was really a very difficult—this
was very difficult for me in the case where Ms.
Brown is the Petitioner. It’s a much more
complicated issue to understand.
I’ve already mentioned that I found Ms. Brown
to be credible. I know she didn’t put in her petition
that she had a relationship with you. She’s
probably not too proud of that. That’s not unusual
for people to come in and not admit that up
front. I actually suspected it before we even got

App.89a
started in the morning. But in opening statements that was addressed right away. Other
than that though I found her very credible.
I think she’s traumatized by the years of you not
stopping your calculating behavior. And the evidence corroborates her testimony. It really does.
She retreats. If you think about like who’s
credible here. She pulls her son out of school in
2010, she sells her house quietly. She doesn’t
even list it.
All of the emails are abundantly—I mean the
communications between you are very clear and
very telling. You are suffering the loss of your
relationship and she is ready to move on. She
has to retain counsel. They give you a cease and
desist letter. That doesn’t stop. You still want to
mediate. Again, the sea of witnesses corroborated
her testimony. They corroborated her testimony
and I found them to be very credible. I’ve made
those findings in the case with Ms. Drexler.
I really feel like the real victim here is Ms.
Brown, and I think that obviously you both agree
you had one intimate relationship. It’s clear that
in an email exchange that she’s moving on. It’s
Exhibit A and it says, December 16, 2008, “Rachel,
I’m not particularly worried anymore that you’re
pulling away, and although it disturbs me greatly,
I wish it was different, you’re distancing yourself
in the face of that has been so shocking and hurtful
to me.” I really think that’s what this case is
about.
She again says, “I got your text this morning.
I’m not particularly interested in talking about

App.90a
our friendship anymore.” And so I keep making
references to that. I wanted to make sure it’s an
email exchange. She’s moving on. That’s in 2008.
So it’s seven years now.
2009 now, it’s uncontroverted, I mean everybody
agrees here that you went to her home, that you
wanted access to her, that you tried to get in.
And I think it must have been not just like hey,
can we talk. I think there must have been voices
raised, it must have been a very scary experience
for Ms. Brown based on kind of hearing everybody
and reading what you wrote about it. I think it
was a significant event and very much scared her.
And very much inappropriate on your part, Ms.
Drexler.
The Court is going to—I’ve already made findings
that it went on and on and on at Stanley British
Primary, they had to deal with both of you over
numerous issues. That was clear to me. It was
hard for me to really get a full picture of what
was going on there but at that time it’s clear
that Ms. Brown doesn’t want to mediate. She just
wants to move on and still Ms. Drexler wants to
mediate.
2009 Ms. Brown has to send a cease and desist
letter because you just can’t separate yourself
and you can’t just move on. You read a long
rambling letter back that I read through. Again,
you want mediation. You want access to her. You
go to her workout facility that’s not even in your
neighborhood. You know she works out there. You
know she’s in this class. I think so you can cross
paths with her.

App.91a
In the spring of 2010 she removes her son from
Stanley British Primary. She’s the victim. She’s
trying to get away from you. In 2012 she sells
her house and relocates to a different neighborhood. That’s completely consistent with somebody
who is a victim of domestic abuse and/or stalking.
In 2012 you write short stories about her. I
mean I read some of the—I don’t even want to
repeat some of the things in there that I thought
were so mean. You’re just telling all of your
confidences as friends and you’re making them
public, which destroys her, which certainly is a
burden on her marriage, like she wanted her old
boyfriend.
I mean all those things I was reading through
and I thought this is mean. This is to upset her
life. And you can do that. And if she were in here
trying to get a protection order for that I’d be
telling her no, you can’t have a protection order
for that. You need to move on and get over it.
You read them at school, in a place where she
had to be around other parents.
You wanted to depose her in a civil lawsuit. You
decided to pursue a degree where she teaches,
which is fine. I’m sure there’s good reason for
that. You sign up for an elective that she’s
teaching, and you knew it. All of that is behavior
that is very concerning to the Court and supports
that she is the victim here.
I think the evidence supports that you have a
very unhealthy obsession and fixation on Ms.
Brown. You are very calculating, you are very
smart. You are very careful how you go about

App.92a
things. You’re smart enough not to make any direct
contact, but you do whatever you can to have
access to her.
Domestic abuse sometimes is very complicated
and that’s why I think this case was so difficult,
because you have an excuse and a reason for
everything, but when you look at the pattern of
behavior it is very concerning to this court.
You’re doing it—I think a good part of it, when
you look at the pattern of behavior—to manipulate and to intimidate. It rises to domestic
abuse. You’re doing whatever you can to control
her, to make her life uncomfortable, to make her
feel stress, to intimidate her.
Obviously I think through my different careers
I’ve had a lot of access to domestic abuse training
and there are people out there that do empirical
studies and data and people like Lundy Bancroft
have had a lot of training. The empirical data
supports that batterers usually perceive their
behaviors as justified. There’s whole training
sections on their sense of entitlement, they shift
blame. There’s a self-centeredness, they perceive
their needs to be paramount and more
important than anybody else’s. I find that all of
your history falls in line with somebody who is a
domestic abuser.
I’m finding that the evidence supports that there
was a reason to issue the temporary protection
order in this case, that Ms. Brown is a victim of
domestic abuse. There was an intimate relationship. You have committed an act or attempted
an act of—I think violence going to her house

App.93a
that one time—stalking like behavior, harassment.
I’m going to find that it is clear to me that she
has been traumatized and suffering and stressed
for years, as has her family. I would find that
you repeatedly have tried to make some form of
contact, whether—although it’s very dysfunctional,
very calculating, and that any reasonable person
would suffer emotional distress, and she has
suffered emotional distress. I felt like some of
the things that you did I thought I would—I mean
any reasonable person would feel emotional
distress.
So I’m going to find—and I’m just hitting the
highlights of the evidence—that there was enough
evidence to support the issuing of this protection
order. And then what she has to show by a
preponderance of evidence—and that just means
more likely than not—this is not a criminal case—
that unless restrained your behavior will continue
or you will continue to commit such acts to
intimidate and retaliate.
I wanted to add one thing that I mentioned in
your case. Well, when I’m dealing with this I
think that this has been—your attempt to make
contact with her or get access to her has been
going on for years. I mean it’s been—I’m trying
to think, has it been seven years? Seven years
since you had a one time intimate relationship.
So what? She doesn’t like you anymore. She says
bad things at the school about you. I mean you
do not let go.

App.94a
You write—like I said, I’ve talked about all the
evidence. All the things that you do to maintain
contact with her and to keep intimidating her I
found quite surprising. And again, I feel like the
filing of this temporary protection order was yet
another way for you to intimidate her and to
retaliate against her.
You have—your behavior has been I think obsessive. I also think that for some reason I think
you make yourself believe that you’re justified
and you make yourself believe that you’re the
victim, which actually is very concerning to the
Court.
It is all of those reasons I think you can’t control
your behavior. Given the years of continued contact
that you’ve made, and I think that counsel for
Ms. Brown stated it best, if you look at any one
thing isolated it makes sense. When you look at
the pattern it’s very concerning to the Court.
That is often what happens with people who are
manipulative, which is a characteristic of somebody
who is a domestic abuser.
So when you look at the years like you can’t
move on. And the presentation of your case, I
think you really believe that you’re justified. I
think you really think you’re the victim. That’s
very concerning to the Court. And I am concerned
for her safety and for this never ending.
I think the Court is going to find that by a preponderance of the evidence the history here
supports that unless I make the protection order
permanent today you will continue to intimidate

App.95a
and retaliate, especially at this phase. So I am
going to enter a permanent protection order.
Now with that being said we have to think about
some parameters. I can’t stop her from going to
CU. She has a right to go and get an education.
CU has dealt with all of that. I’m not dealing
with that again.
I also gave a lot of thought to how do I—if I
enter this order is it really meaningful because
she can still go to your place of employment, she
really hasn’t gone by your house. And so I was
really on the fence at some point to really think
should I—how do we manage this, should I enter
this protection order, will her behavior stop. I
mean I was on the fence.
After giving thought to it I really felt like the
evidence supported that she’s not going to stop.
So I felt like I had to issue it but how we craft it
and how we manage it I think is something we may
not ever be able to manage to be honest with you.
I can enter it but there’s no evidence to support
she’s going to come by your house and she’s got a
right to go to school.
So I’m thinking about that she obviously has to
stay at least ten feet away from you at any function
for the University. She obviously can’t come within
100 feet of your house.
You both naturally are still going to have overlap
as far as neighborhoods and passing. It’s just
going to happen. I don’t know how to manage that.
So I welcome input from either attorney.

App.96a
MS. MARKS-BAKER: Your Honor, I think in sort of
my brief discussions related to this issue with
Katie Goodwin, who is counsel for the University of Colorado, they will abide by the Court’s
order in any fashion that the Court issues it. I
think the Court’s recommendations are reasonable.
I think there is probably safety planning the
University can do to be compliant with the Court’s
order that doesn’t need to involve the Court
involving itself in the logistics, scheduling
classes and the like. I think we can defer that to
the University and feel comfortable with that.
So I think that these parameters make sense,
and then I think there would be a comfort level
allowing the University to determine on its own
what additional parameters based on the Court’s
ruling are appropriate.
Otherwise I think the Court gets mired in sort of
trying to figure out who is taking what class,
and when, and how, and I just don’t think that’s
the right way to endeavor that process.
I can make this suggestion to the Court. I just
looked around, Counsel for the University isn’t
here. I’m certainly happy to go back to Counsel
and ask whether there are particular issues the
University would have to deal with and submit
that in motion work.
THE COURT: I think we can probably craft something
today so we don’t have to keep coming back and
incurring additional attorney fees. So let me
hear from Counsel.

App.97a
The other thing is that I don’t enter these orders
lightly. I do this all day long. At one point when
Petitioner Drexler was putting on her case I had
some concerns because I had not yet seen evidence
to support the issuing of the temporary protection
order.
Sometimes I do interject myself hoping that parties
can reach some sort of a resolution. Parties often
do in this case where they’re able to walk away
and discuss how can we both walk out of here
without a permanent protection order. People
reach agreements all the time, they agree, they
don’t.
But after I raised that issue I felt like okay, I
just need to hear more evidence. That’s why I
allowed the expert to come in. I really wanted to
listen to all of the evidence before the Court
made up its mind, but it just never changed. I
just have to say that because I know there was
that one point when I brought it up.
The Court is going to issue the temporary
protection order. Counsel, any recommendations
you’d like to make to the Court?
MR. MATTHEWS: Your Honor, only that with regard
to the distance requirement—and as I understand
it that relates to the UCD property only. My concern is simply that Ms. Drexler does business on
Larimer Street.
THE COURT: That’s why I’m thinking ten feet away.
We have people all the time who live in the same
apartment complexes, they go to Metro together.
We deal with this actually all the time and it’s
not that complicated. If they come in contact she

App.98a
has to stay ten feet away from her, period. That’s
not hard to do in a hallway.
MR. MATTHEWS: My understanding is—
THE COURT: As far as classes and things like that,
I’m going to defer I think to the CU administration.
MR. MATTHEWS: Then I just want to confirm that
that is not beyond the—is the ten feet requirement beyond the parameters of UCD?
THE COURT: Yes.
MR. MATTHEWS: Yes.
THE COURT: So in other words, anywhere she may
be found. And within 100 yards of her home. I
mean ten feet. If they’re crossing—all she has to
do if they run into each other inadvertently is
make sure she stays ten feet away from her.
(Brief pause)
MS. MARKS-BAKER: Your Honor, if I may. Ms. Brown
reminds me they do have a secondary home in the
mountains and I don’t know whether we included
that in our petition but if we need to give the
specific address of that property we can.
THE COURT: We’ll add that.
All right, then we have the issue of the motion to
quash the subpoena.
Counsel, I have to say if you want to come up
here, you can make any record you want.
Obviously, I appreciate that you filed the motion,
and I know you amended your motion. I’m going
to give you what I think, and you can make any
record you want.

App.99a
People file motions to quash subpoenas all the
time. They’re pretty simple. They get filed. I rule
on them. People have to subpoena witnesses even
though they—you know years have past, time
has past, but because obviously hearsay can’t
come in and a lot of times even when I was in
private practice when I would subpoena
everybody, because I needed it to prove my case.
I am not inclined to grant your request for attorney
fees. It is a form that you can download off the
State Court Administrators Office.
And often we have pro se clients and I tell them
file a motion to quash. They just subpoenaed the
mail, and I usually grant it. Okay? I’m not going
to grant your request for attorney fees.
UNIDENTIFIED ATTORNEY: Okay.
THE COURT: All right. Is there anything further?
Yes?
UNIDENTIFIED ATTORNEY: Can I just say for the
record that the attorney fees were never requested.
THE COURT: Oh, I must have misunderstood it, sorry.
UNIDENTIFIED ATTORNEY: That was Mr. Matthews’ suggestion. Attorney fees have never
been requested in any of the documents.
THE COURT: Okay, I apologize, I’m sorry.
UNIDENTIFIED ATTORNEY: Okay. The—and actually they were specifically said that’s the
motivation here. The motivation is that an unreasonable subpoena was issued that has
nothing to do with this case.
THE COURT: Okay.

App.100a
UNIDENTIFIED ATTORNEY: And that’s—and so I
would ask if you can read the motion again and
see the—
THE COURT: I’m not going to make those findings.
That’s a whole evidentiary issue. I’m not going
to make those findings.
You did a motion to quash. I quashed the
subpoena. Right, am I remember it correctly?
UNIDENTIFIED ATTORNEY: No, he—Mr. Matthews
withdrew the subpoena in order to moot—
THE COURT: Oh.
UNIDENTIFIED ATTORNEY: —the initial issuance of
the subpoena.
THE COURT: Got you.
UNIDENTIFIED ATTORNEY: And what we are
arguing is that the initial issuance of the
subpoena violated Kathleen Keeland’s Fourth
Amendment rights,—
THE COURT: Right.
UNIDENTIFIED ATTORNEY: —because she had
nothing to do with a civil protection order hearing.
It’s compelling someone out of their home—
THE COURT: I understand all of that.
UNIDENTIFIED ATTORNEY: Okay.
THE COURT: I’m going to deny those—your request
to make those findings. I mean I think obviously
at some point she provided some sort of the
bullying parameters or something for the school.
And so remotely she—if her evidence could have
been relevant, so I’m going to deny your request.

App.101a
All right, the court is going to be in recess.
(Trial adjourned 1:33 p.m.)

App.102a
FINDINGS AND ORDER TO
SUPPLEMENT PROTECTION ORDER AND
ORDER TO RESPONDENT TO RELINQUISH
FIREARMS AND AMMUNITION
(OCTOBER 27, 2015)
COUNTY COURT, CITY AND COUNTY OF
DENVER, COLORADO
________________________
RACHEL BROWN,

Petitioner,
v.
REGINA DREXLER,

Respondent
________________________
Cases 15W1242
Courtroom 170
Before: Chelsea MALONE,
Denver County Court Judge.
THE COURT, having conducted a hearing with
actual notice to Respondent, and at which Respondent
had an opportunity to participate, hereby finds/orders
as follows:
1. Respondent represents a credible threat to his/
her intimate partner, the Petitioner, (and)(or) child of
such intimate partner or Respondent, AND Respondent
is prohibited from the use, attempted use, or threat-

App.103a
ened use of physical force against such intimate partner
(and)(or) child that would reasonably be expected to
cause bodily injury.
2. Respondent shall restrain from harassing, stalking, or threatening his/her intimate partner, (and)(or)
child of such intimate partner or Respondent.
3. Respondent shall restrain from engaging in
other conduct that would place his/her intimate partner
in reasonable fear of bodily injury to the partner
(and)(or) child of such intimate partner or Respondent.
THUS, Respondent is subject to a Protection Order
that qualifies as an order described in 18 U.S.C. sec.
922 (d)(8) and (g)(8), and therefore, Respondent:
1. Shall refrain from possessing or purchasing
any firearm or ammunition for the duration of the
order, and
2. Shall relinquish, for the duration of this order,
any firearm or ammunition in Respondent’s immediate
possession or control, or subject to Respondent’s
immediate possession or control, within:
●

24 hours (if served in open court) for firearms
and ammunition

3. If Respondent is in custody, he/she must comply
within 24 hours of release from custody.
4. Respondent shall file proof of relinquishment
with the court, within 3 business days of the relinquishment as required by law/statute.
/s/ Chelsea Malone
Judge

App.104a
Date: 10.27.15
By signing, I acknowledge receipt of this order.
/s/ Regina Drexler
Respondent
Date: 10.27.15
I certify that this is a true and correct copy of
the original order and that Respondent was served
with such a copy.
/s/ not legible
Clerk/Sheriff
Date: 10.27.15

App.105a
AFFIDAVIT OF COMPLIANCE WITH FIREARM
AND AMMUNITION RELINQUISHMENT ORDER
(OCTOBER 27, 2015)
COUNTY COURT, CITY AND COUNTY OF
DENVER, COLORADO
________________________
RACHEL BROWN,

Petitioner,
v.
REGINA DREXLER,

Respondent
________________________
Cases 15W1242
Courtroom 170
I, Regina Drexler, hereby submit this Affidavit to
the Court
●

I do not own or have control over a firearm
or ammunition.

VERIFICATION AND ACKNOWLEDGMENT
I, Regina Drexler (name) swear/affirm of perjury,
that I have read the\foregoing AFFIDAVIT and that
the statements set true and correct-to the best of my
knowledge.
/s/ Regina Drexler

App.106a
Respondent/Defendant
State of Colorado
County of Denver
Subscribed, sworn to and acknowledged to me by
Regina Drexler, this 27th day of Oct, 2015.
/s/
Notary Public Deputy Clerk

App.107a
NOTABLE ESSAY AWARDS, BEST AMERICAN
ESSAYS AND ESSAYS OF PETITIONER

NOTABLE ESSAYS OF 2013
REGINA DREXLER,

LANDSLIDE, COLORADO REVIEW, SPRING 2012
Of all natural disasters, landslides are more
devastating than most people realize. Worse, they
are often triggered by other natural disasters, such
as earthquakes and volcanic eruptions. Scientists
refer to this as the multi-hazard effect. In one of the
deadliest landslides of the last century, in the Ancash
region of Peru in 1970, the multi-hazard effect was
responsible for the burial and death of over fifty
thousand people. Of course, in most circumstances,

App.108a
death comes before burial. Where there are multiple
hazards occurring nearly simultaneously, however, it
is likely that even if you survive the first disaster,
there is another on its way to bury you alive.
Ten years ago, as I was in my new-motherhood
panic with an infant baby boy, I met her. I was taking
my son out for a walk in the neighborhood with his
baby jogger, doing one of my early impressions of an
enthusiastic young mother. I was walking past as she
called out, “How old is your baby?” It was the pickup
line for the stay-at-home-mommy set, women desperate
for any kind of adult interaction. “He’s four months,”
I said as I approached. She was holding her son in
her arms, standing on her perfectly manicured lawn.
He was dressed as a professional golfer.
As she explained that her son was six months old,
I noticed that she had not allowed herself the personalhygiene hiatus that most new mothers, including me,
had granted themselves. My hair was falling in clumps
from my limp ponytail, and I had stains of breast
milk and rice cereal drying on my T-shirt. Her shoulderlength light brown hair was neatly combed beneath
her wide-brim sun hat, and she appeared to have just
come from the dressing room at Anthropologie.
After introducing our sons, we stood there,
watching them and waiting, as if they were going to
exchange pleasantries. Then and suddenly, she invited
me and my son to join a play-group. I accepted the
invitation, although I did not seem to have a lot in
common with her, or anyone else who had a baby. I
was a lawyer. She gardened. Not that those things
were mutually exclusive, but I know that only now.
At the time, I thought we were quite different; the
only way it seemed we were alike was that we enjoyed

App.109a
the same movies—I had seen her before at the video
store and we had spoken there a few times.
But we were not fast friends. Even after meeting
in the same playgroup once a week for several years,
we were not friends. At first, if I am honest, for those
first several years, she was not interesting to me. She
was boring, in fact. Boring in the “My life is perfect,
and my son is perfect, and my marriage is perfect,
and my house is perfect, and my garden is perfect”
way. Boring in the way that only perfect can be, and
not worth investing any emotional energy, until one
summer—the playgroup’s fifth summer.
Her heart had been broken that summer by her
lover, an old high school boyfriend who, she had desperately hoped, would help her escape. I could understand what she was hoping to escape from: the idea
that this is all there was. This life of wifedom,
motherhood, laundry, sex on Saturday mornings (if
then), and playing trains on the floor for hours on
end. That this was all there was or would be—where
time moved so fast that it made us old overnight, but
where each day, hour by hour, moved so mindnumbingly slowly.
But he would not help her escape. She somehow
managed to keep her heartbreak about this fact contained, and thus her marriage intact. But she had to
tell someone, if only because a broken heart is too
much for anyone to bear alone.
We had run into each other unexpectedly one late
afternoon in the parking lot of the neighborhood grocery.
As soon as she saw me, she broke into writhing sobs,
the tears from her eyes and the fluid from her nose
running together, down her chin and onto her blouse.

App.110a
She could not help herself from repeating, “Why doesn’t
he love me?” I was shocked and discomforted by her
grief and that she would allow me to see it. I said, “Of
course he does,” thinking that she meant her
husband, who seemed too afraid of her not to.
Unfairly frustrated, as if I were somehow to blame
for not being up to speed, she bawled, “Not him.” As
she continued crying, I felt a pull to embrace and
comfort her, but I did not do so, fearing that she
would judge such an act too intimate, not yet within
the repertoire of our relationship. So instead, I tried
to soothe her from a distance, “Everything will be
okay. Don’t cry.” But she was disconsolate, and I could
see for the first time that neither she nor her life was
as perfect as she’d wanted everyone to believe. And as
things went, her imperfections made her human, and
interesting, at least to me. Because I did not have a
perfect life either.
Although I did not want it to be true, I was not
happily married. I had known this since a few hours
after my wedding many years before. My new husband
and I were in the presidential suite of a lower downtown
hotel after coming from our wedding reception. He
had helped himself to both of the chocolate squares
that had been carefully laid on the bed next to the
towels twisted into swans, their tails forming the
shape of a heart appropriate for most wedding nights.
He said, “Well, I just made the worst mistake of my
life.” Confused, I said, although it was not true, “I
wasn’t going to eat mine anyway.” But he clarified:
“No, I mean marrying you.” I was still in my wedding
dress.
And, just like you’ve heard on daytime talk shows,
it got worse. His violent, episodic rages began on our

App.111a
honeymoon. They were terrifying and unpredictable.
They were not rational. One night I was taking out
my contact lenses, the disposable ones that I had
always thrown in the trash, and my husband said,
“Hey, you’re going to clog my sink with those.” Caught
off guard by what I had confused as a joke (the sink?),
I laughed. Although it would have been an equally
big mistake not to laugh had it actually been a joke,
it was not.
He erupted, storming toward me and shaking the
floor under my feet. He screamed within inches of my
face. And I froze—which means, simply, that I mentally
shut down and physically became paralyzed, losing
all feeling in my arms and legs—becoming so lightheaded that I felt like a yellow balloon, slowly floating
away from myself, at risk of popping at any moment.
Within moments his voice had gone hoarse and my
cheeks were covered with his saliva.
It is not uncommon for people to remain in
disaster-prone areas even when it is ill advised. The
reasons people stay vary, but often have to do with
underestimating the level of risk, the inability—financial or otherwise—to do anything different, and family
ties to the area that make it difficult to leave. I
stayed in my marriage for many of the same reasons.
The risk of disaster was always present, but the
eruptions and upheavals were not predictable enough
for me to appreciate the danger inherent in staying.
In any event, after my son was born, it seemed
there was no way to extricate myself. I was not in an
economic position to walk away, even if I thought my
husband would let me. Even more, I was not in an
emotional position to accept that I would likely be
forced to abandon my infant son in the danger zone,

App.112a
at least on Wednesdays and alternating weekends. Of
course, in retrospect, it doesn’t make sense to stay in
a marriage like that. All I can say, for the defense, is
that it is so hard to believe it is happening that it
becomes easier to pretend it is not.
At its inception, playgroup had just five kids—
three boys and two girls. But none of us stopped at
one baby, so by the end of all of our childbearing
years, there was a total of eleven kids: three girls
and eight boys. Two of those boys were mine, and two
of those boys were hers. When people think of a playgroup, they likely think of a horde of kids playing
together, and that’s what it was. But that’s not all it
was, at least not to me. Over those years, it became
my single emotional escape, a lifeline saving me from
the disaster of my marriage and the aftershocks of
sadness and grief that I was sure would overcome and
crush me amid the wreckage.
I don’t think that it is altogether uncommon.
Finding happiness outside of marriage. You’re lucky
to find it at all, really.
At least one afternoon a week, we gathered in
one of our kitchens and dispatched the kids to the
basement—or if it was nice, outside—to play. Then
the wine was opened, and playgroup started. On one
of those afternoons, we were in my kitchen. Although
I had spent hours cleaning in preparation for hosting
playgroup, oatmeal was still stuck to my countertop.
As soon as she noticed the hardened clumps, she did
not just politely ignore them like the other moms.
Instead, she helped herself to a sponge from my sink,
sniffed it, and scrubbed the counter spotless.

App.113a
As she often did, she brought a discussion topic
for the afternoon.
She said, “So my new rule is that I won’t give my
husband a blow job unless he finishes reading a
book.” We all knew immediately that he would never
get another one. Turning to me, she suggested, “Maybe
you should try that, too.” I shook my head slowly,
taking a long sip of wine, and said, “No, sweetheart,
bad idea. If I adopted that policy, I’d end up giving
more rather than less, up from none to one or two a
year.” I directed her: “Under no circumstances are
you to mention your ‘new rule’ to my husband.”
Laughing, her tiny crow’s feet revealing themselves,
she said, “I’m not promising anything.”
As the afternoon sun went down, it was eventually
time for everyone to go home to make their respective
dinners. As children’s shoes were gathered and tied,
my husband walked in the back door, home from work.
She was standing next to me as she turned and said
to him, “So, have you finished any good books lately?”
I looked up quickly, in time to catch her wink. I
reached to grab her head, gently shook it, and covered
her mouth with my hand. We bent over with laughter
as I pushed her toward the front door and out.
In the Ancash region of Peru on May, most of the
people in the picturesque mountain town of Yungay
were indoors, socializing and watching the Italy-Brazil
World Cup Soccer match on television. About three
hundred of the town’s children had gone to a circus
just outside of town.
At 3:23 in the afternoon, there was a loud rumbling
and the ground shook from an earthquake off the coast,
many miles away. The tremor passed quickly, but the

App.114a
quake caused a large section of glacial ice to dislodge
well above the town. In less than three minutes, the
town was obliterated by the resulting landslide, buried
by the accumulated earth, ice, rock, and debris that
had gathered momentum on its violent race downward.
Everyone in the town was buried alive, except those
few who had managed to quickly climb, ironically, to
the cemetery, which overlooked the town, and the three
hundred children who had been led to safety by the
circus clown. The entire town was swallowed up by
the slide, the tops of four palm trees the only visible
markers of the town’s former life.
During those years, my husband’s violent and
explosive out-bursts caused periodic instability and
tumult, but the playgroup provided a safe haven from
those upheavals. Early on, most of our conversations
were about how gifted our children were and which
new word or trick one of them had learned. Later,
she and I traded advice and ideas on toilet training
and upscale kindergartens. Later still, we exchanged
advice and ideas on how to balance the demands of
motherhood against everything else, both of us trying
to maintain ourselves amid the mayhem and wonder of
these little boys we loved without condition one minute
and disdained the next as we were forced, inexplicably,
to clean urine off our respective kitchen walls. Over
those years, she and I gradually revealed ourselves to
each other, building layer upon layer of confidences
and shared experiences.
She had trusted me with her secret in the parking
lot that summer day, and at some point I had also
entrusted her with the shameful truth of my marriage.
We were the same in that sense, each outwardly
pretending our marriages were better than they were.

App.115a
We had other similarities as well. We were both smart.
We had both married men who were better looking than
we were, which brought out similar insecurities in
each of us. We were both good boy-moms, healthy and
outdoorsy. We liked to snowboard, mountain bike, and
camp, but, because neither of us liked to be
uncomfortable, we decided to buy a pop-up camper
together.
We took all four of our boys with us to purchase
the camper. The saleslady at the RV outlet approached
us and asked timidly, “So, will the camper be for the
two of you and your sons?” We both spoke quickly,
and over each other, “No, no, we’re married. We’re
not together.” And we joked, “Not that there would
be anything wrong with that,” because we thought of
ourselves as liberal and open-minded and we had
watched Seinfeld like everyone else.
The years and the weekly playgroup meetings went
on, and, by the time nine years had passed and our
infants had become young boys, I thought she and I
had become as close as sisters. “We might as well be.”
She said that at the doctor’s office, where we were
finding out whether the cancer had spread to her other
breast. She said that to the nurse who’d said we looked
like sisters.
She was diagnosed with breast cancer less than
two weeks after our annual playgroup trip to the
mountain house. We had all chipped in to rent the
house for a long summer weekend. The moms and kids
arrived at the house first, late on a mid-July afternoon,
the husbands not scheduled to drive up until the next
day. The wine was opened, dinner was made and
devoured, and the kids fell asleep together in the

App.116a
basement watching a movie, their small arms and legs
intertwined.
After we had emptied the third bottle of wine,
she opened the tequila. As our friends succumbed to
liquor and sleep, eventually only she and I were left
awake, reclining in our chairs out on the expansive
deck. As the full moon lit up the surrounding peaks
and valleys, we listened to her iPod playlist repeat
again and again. A song about a sweater poorly knit,
playing over and over, forever becoming the soundtrack
to that night: I do not exist, only you exist. I do not
exist.
The chill from the cool mountain air quickly forced
us into our thick bulky sweatshirts, and eventually
under the single heavy blanket on my deck chair. And,
admittedly, I was tired. And, admittedly, I was drunk.
And, admittedly, I was not perfect. And because it
seemed somehow inescapable, I covered my eyes with
the heels of my palms and said, finally, “I think I
might be attracted to you.” And she said, too quietly,
“I know.” And then, after too long, after the humiliation
started to settle in my chest like a rock, she said, “I
think I feel that way, too.”
I reached to grasp the front of her sweatshirt to
pull her toward me, but my fingers did not catch, and
instead skimmed over the slick decal on the front of
her shirt. But the intention of the motion was clear,
and I leaned forward and kissed her, our teeth
striking hard and awkwardly. She seemed stunned, as
if she had not imagined that moment before. But when
I leaned forward again the next moment, her mouth
willingly met mine.

App.117a
We stayed out on the deck for some time, too
distracted by the maneuvering of our tongues and
hands to notice the parts of our bodies that were
pressed painfully against the hard wood of the deck
chair. We stopped to ask each other, repeatedly and
too often, “Are you okay?” The answer each time was
an audible but inarticulate murmur of assurance and
a deeper, longer kiss. Because she was experienced,
and she knew that I was not, she asked me, “Doesn’t
it feel softer with a girl?” I stopped long enough to
answer, “It feels the same.” Although it was true that
it didn’t feel softer, it was also true that it did not feel
the same. Instead, in that moment, it felt better—
kissing someone I liked and who seemed to like me.
As we started to shiver, as much from anticipation
as from the cold of the night, she said, “Let’s take
this inside.” Up in her room, she pushed me down on
her bed—the bed she would share with her husband the
rest of the long weekend. She asked, as she unfolded
and tucked herself beneath my arm, “When were you
first attracted to me?” I answered honestly, “I think
when I grabbed your head at playgroup that time.” I
gently grabbed her head between my hands, to remind
her, and she slowly lifted her lips again to meet mine.
She stopped then, slowly pulling away, and said, “I
thought this would happen before now.” I asked,
“When?” As she gathered strands of my falling hair
and moved them behind my ear, she lifted her eyebrows
and said, “You know when.” And I did.
The entire scene had already played out in both
of our heads, months earlier, late one night in an
empty parking lot where her car was waiting, awash
in the harsh light from the nearby streetlamp. I had
given her a ride to her car after a red wine dinner at

App.118a
an Italian restaurant. We were sitting in my car,
facing each other, first laughing and then too quiet.
Because I was afraid of what was about to happen, I
started talking about our husbands, sabotaging the
moment. On this night in her bed, so much time having
passed since the parking lot, I was still afraid, but I
did not mention our husbands.
As she reached up again to touch my breasts, I
resisted and gently pushed her hands away. But she
was determined and persistent, and ultimately I didn’t
want to push her away. Alternating between tender
affection and breathless lust, with the light of the full
moon bending through the long windows, I surrendered
to my attraction for her.
After, she said that she wished we could travel
around the world together. And again after, feeling a
sudden pull to escape that I did not fully understand,
I started to get up to go to my bed—the bed that I
would share with my husband. As I gently pushed her
hair from her face and reached around to move her
arm from my back, I started to stand, saying, “I should
let you get some sleep.” She pulled my arm toward
her and said, “Stay and hold me?” I stayed and held
her until she fell asleep.
The next morning, the playgroup moms made pancakes for the playgroup kids. As we cracked the eggs,
mixed the batter, fried the turkey sausage, set the
table, and poured the juice, she and I avoided looking
at each other. And although I wanted—at that moment,
in that kitchen—to reach out and touch her and tell
her that everything would be okay, that we would be
okay, I did not do or say anything.

App.119a
Later that afternoon, the husbands arrived. As
her husband came through the door, she moved toward
him and kissed him warmly. I had seen her and her
husband together many times over the years, but not
once had I ever seen her French-kiss him hello. Taking
my cue from her, I did the same with my husband.
Through the early evening, her displays of affection
for her husband became more and more exaggerated.
I initially tried to keep pace with her, but I soon gave
up, recognizing that I could not muster the energy
nor feign the affection for my husband that would be
necessary to compete.
After we had made and eaten dinner, and sent the
kids off to the basement to play, we all went out to sit
on the same deck, under the same full moon, to listen
to the same playlist, repeating over and over. She
was sitting on the same deck chair, this time resting
against her husband’s chest, once again in the arms
of her seemingly perfect marriage.
***
After she was diagnosed with cancer, the playgroup
moms went into full cancer-battle mode, using the
eight-week, rotating, organic-casserole-dinner defense
to ward off our fears about her weakness, a prolonged
illness and worse. Because she had cancer, it seemed
ridiculous to try to talk about anything else. And what
could have been said anyway without risking everything? It seemed safer then to chalk it up to being
drunk. So that’s what I did.
I decided to try to forget it happened. Her plan
seemingly was the same. Given our common strategy,
we never talked about it and instead focused on her
cancer treatment. She asked me to go to doctor appoint-

App.120a
ments when her husband couldn’t, and I did. I sat
with her on her couch as she doubled over in heaving
sobs, holding her hands and confidently assuring her
that she would live to see her boys turn into young
men. I promised that I would take care of them if it
became necessary, although I told her that I was sure
it wouldn’t. In truth, I wasn’t confident and I wasn’t
sure—about anything.
By the time the nurse had said we looked like
sisters, it was true that we might as well have been.
It was also true that we may have been more than that.
Later, though, I would understand that, for me at
least, it wasn’t possible to be anything more than
that, that there could never be anything that was
more than that.
A few months after she was diagnosed, she and I
had our first argument. She was in the midst of
radiation treatment and tired, but she had agreed to
go to a Halloween party, at the house of a virtual
stranger, to which our families had been invited. In
the living room, amid the costumed crowd, we started
to argue about something of no consequence. Of course,
we were really arguing about something of great consequence, but neither of us was ready to acknowledge
that. We were arguing, though, and as I had learned
to do with my husband, I quickly tried to defuse the
conflict. I embraced her and said, “I didn’t mean to
hurt your feelings” and “I’m sorry.” But as I started
to back away, she reached for and held both of my
forearms, imprinting her fingertips and abruptly
halting my backward motion.
Eye contact with her had always, and particularly
at that moment, felt too intense. But her eyes were
red and wet, and I could not avert mine from hers. In

App.121a
that moment, I did not expect her to apologize for our
argument or even accept my apology for it. But even
more, I did not expect her to say then, without moving
her eyes from mine, and without blinking, “I love
you.” And maybe because I did not expect it, and maybe
because it was exactly the last thing I expected in
that moment, and maybe because I was afraid—either
of what she meant or of what she may not have
meant—I did not say, “I think I feel that way, too.”
Instead, I pretended that I had not heard her, and I
quickly looked away and stepped back. And she did
too.
A landslide usually starts with a small incident,
a tiny crack in the earth’s surface. A seemingly insignificant fissure can fill with water and freeze,
making it vulnerable upon a subsequent thaw. Combined with the force of gravity, this freezing and
thawing can lead to a crushing avalanche, the earth’s
surface falling in on itself. When exposed to extreme
temperature changes, even rock is likely to crack.
Given seasonal weather patterns, this freeze/thaw
cycle is most likely to cause disasters in the spring.
It is often small movements—just one rock moving
out of place, a small piece of earth shifting after an
early spring thaw—that first suggest that the ground
beneath you is about to collapse. If you are aware
enough to notice these cues in advance, you can try to
minimize the potential losses by establishing protective
barriers and reinforcement walls. Scientists will tell
you that these efforts are, however, much less effective
than evacuating. In short, it’s safer to simply run
away.
It seemed like a small thing, not knowing exactly
how to act after she’d said something so unexpected.

App.122a
Trying to act normal. But I had not recognized that I
was on such dangerous ground or that her vulnerability
would cause the ground to become much more unstable.
And I had not noticed the subtle cues of the impending
collapse that would come from her feeling rejected, in
a way that was as important to her as anything else.
For these reasons, I did not get my emotional walls
up in time to provide any protection at all. And although
it would have been advisable to do so, I also did not
run away.
Everything was shifting under my feet. The place
that I thought I inhabited on the planet, that felt
stable, that felt safe, was about to slip out from under
me. I did not know how to stop the shifting or how to
put everything back in place, back where it was safe.
And as I lost my footing and started to slide down, I
fell further and further away from everything to
which I had ever belonged.
I belonged to my family. The one with brothers
and sisters, whom you don’t abandon. Who doesn’t know
that? I also belonged to my family—the one with my
husband and two boys, whom you also don’t abandon.
Finally, and more significantly than was reasonable
in retrospect, I belonged to playgroup, or thought I
belonged.
Because this is what happened as the earth began
to shift: it was nearly five months later and she had
been declared cancer-free, her seemingly perfect life
restored. She and I were at a basement party after
coming from the elementary school’s spring auction,
again in the house of the same virtual stranger, where
we’d had our first argument. There was a full bar in
the basement. This fact was, as it turned out, unfor-

App.123a
tunate, because she had always held her liquor
better than I.
For a few seconds we were standing there together
in the basement. Not on the dance floor, but next to
it. At least people were dancing. And although apparently it had been building and gathering momentum
during that after-party for more than an hour, her
rage seemed sudden and came at me unexpectedly.
Her jaw was locked in anger, and words started
spewing from between her clenched teeth. She said,
“You had no right to use my babysitter.” I eventually
understood that she was incensed that I had hired
our mutual babysitter to watch my children that
evening. She glared at me, unblinking, raging in
silence, waiting for me to say exactly the right thing
to fix everything. But it was too much anger, and my
brain froze, again.
I could not move my mouth to say that I had simply
needed a babysitter that night, that she did not have
exclusive rights to our shared babysitter, that I had
not hired the babysitter to make her angry, that I
would not intentionally do anything to make her angry.
That I was not going to clog the sink. This dynamic
felt so familiar, but it had never happened before
with anyone but my husband. I expected it from him,
but I never saw it coming from her.
I waited for her to say something. I had no choice
but to wait for her to say something. That was the
nature of it. I could not say anything, right or wrong,
to fix everything or even to break it more. I could not
think. And then, and suddenly, she was leaving.
My husband did this, too. Leaving. There was an
instant thaw. I knew this, so I knew what to do. I

App.124a
followed her home from the party. And I was standing
at her door late at night. But it was not only her
door. It was their door. And they were both standing
there. And suddenly it seemed like maybe this was
not the thing to do.
I cannot now reasonably argue that I did not love
her, because in truth I could not have loved her more.
But I did not follow her home because I was in love
with her and willing to abandon my husband and two
boys. It might be more interesting if that were the
truth; it might have changed everything. But in that
moment, she had left and I had followed, in the same
way that I had followed my husband after he’d left
many times before.
I followed her that night because I had learned
early in my marriage that there would be significant
consequences for not following, for not seeming to
love someone enough to follow them. But unfortunately,
with her, as with my husband, there was never going
to be an “enough,” no matter how many times I followed
or for how long or how far. But I didn’t know that
then. And so I was standing at their door, not yet
fully comprehending that the disaster of my marriage
had already triggered a much larger and much more
dangerous threat.
In the harsh light of their floodlit porch, the
night air too cold for what had been such a mild spring
day, I somehow managed to say, “This is not about
the babysitter.” And I was right about that, of course,
but I could not then say what it was about. Her husband
was standing there, and she appeared terrified that I
would do so right then and there, but I did not go
there to ruin her perfect life. She took cover from me
all the same, moving behind her husband, retreating

App.125a
into an alliance with him that I had never seen before.
As she merged herself with him, I did not recognize
anything about her, except her palpable fear of what
I might say next. But I would not say anything next.
I was there, with my imperfect hand on their perfect
doorjamb, unable to say anything else and unable to
move. She tried to close the door, and when she noticed
my hand there, she opened the door wide enough to
pry it loose and started to push me out.
Initially I could not move from the doorway of
the house where I had spent so many long afternoons
in deep conversation and fits of laughter. The house
where I had brought her sons after feeding them huge
helpings of ice cream and assuring them that their
mom, just home from the hospital, was going to be
fine. The house where I had brought my own sons so
many times when I wanted them to feel safe, and when
I wanted to feel safe myself, from the fear and
uncertainty that surrounded our own home. After a
moment, I gave in to the momentum of her push and
stepped back. The door closed with a finality incongruent with all the things not said and done.
If you have not evacuated in advance of a landslide,
there is little you can do after it starts. Due to its
speed and intensity, once a landslide starts, it is
nearly unstoppable. The force and momentum generated are simply too great, and thus anything in its
path is likely to be taken down. The resulting losses
are extensive, the damage total, and the changes to the
landscape are permanent. The effects of a landslide
are often so large and dramatic that it is difficult to
ever stabilize the affected area. And it is not advisable to ever build there again.

App.126a
There would be consequences for not saying and
not doing exactly the right thing, for not putting
everything back in place, and for being too afraid to
do anything else. And there would be consequences
for not running away. Despite everything—our shared
lives, our shared confidences and experiences, our
shared intimacies—and maybe because all of those
things made her feel too vulnerable, too imperfect—
she would start to say to the other playgroup moms,
to her husband, to my husband, to her children, to
the principal and teachers at the elementary school,
to our mutual babysitter, to the virtual stranger, to
everyone in our shared community, that I had followed
her home because I was a lesbian, a stalker, and an
unstable and dangerous threat to her, her husband,
and her children. As evidence of my dangerous and
erratic propensities, she would say that I had even
grabbed her head and shaken it. She would never
mention the mountain house or tell anyone that she
loved me.
She knew that I would never mention these things
either, even in my own defense, because to do so would
have exposed me and my sons to the dangers inherent
in living with and divorcing an abusive spouse. She
was smart enough to know then that she could say
anything she wanted about me and that I would not
be able to do or say anything to defend myself or my
children with the truth. I had made my bed by sleeping
in hers, and I would have to lie in it.
She never spoke to me or my sons again. If I was
walking down the sidewalk in front of the busy school,
and she was also walking down that same sidewalk
from the other direction, upon noticing me she would
veer off the cement, well into the grass, careful to

App.127a
show that she was maintaining a safe distance. Her
sons would run in the opposite direction if they saw
me in the school hallway. She would not let her boys
play with or talk to mine. Our playgroup membership
was hastily terminated. At the time, my sons were
five and nine, and they did not understand what was
happening or why they could not play with their friends.
I was forty-two, and I could not help them understand.
In this story, not even the children would be spared.
Soon, not having any escape from it, I lost my
marriage. Admittedly, that may have been no great
loss. But like a natural-disaster victim wandering
dazed through the remnants of a former life, I slowly
came to understand that there had been enormous
losses. I had forever lost my friend—my sister—my
family with the husband and two boys, and the
playgroup. I did not belong anywhere. These losses
were very real, the destruction total. The truth would
be forever covered by her undisputed accusations. I
would be buried alive, with all of her secrets buried
with me.
In the end it wouldn’t matter whether I had fallen
in love with her or hadn’t. She wouldn’t believe or be
satisfied with either. And so my life as I knew it
would be obliterated, so much so that sometimes, later,
I would wonder if it had ever existed at all. My sons
would be the only evidence of my former life. They
would be daily reminders of my past, but also of my
present and future. And in spite of her efforts to help
my husband gain custody from me, I had my boys. They
somehow survived the landslide with me, and I would
build our lives again, this time on different and more
stable ground.

App.128a
After a disaster, survivors often become numb to
a world seemingly oblivious to their suffering. In
their disoriented state, they move in slow motion
through their newly surreal lives, where not even the
air feels familiar. They are dismayed that life can go
on for anyone as before, that anyone could be so
unaffected by the large-scale disaster that has left
them in ruins.
It had been nearly five months prior that she
had said she loved me. In every moment since and
before, there were things that should have been said
and things that should have been done. But they
weren’t said and they weren’t done, by either one of
us, and so we did not avert or escape the devastation.
And although I don’t understand how, the world keeps
turning on its axis and the seasons keep changing.
My thoughts are in the same place, circling, and circling
back, over the vast and battered remains of the
emotional landslide. The world goes on without noticing
that the landslide has taken me down. And in fairness,
it has probably taken her down, too. But it’s like the
world is oblivious to the heartbreak of it all. And that
is a stunning realization at some level. As stunning
as the realization that it is spring again.

App.129a

NOTABLE ESSAYS OF 2014
REGINA DREXLER,

STEALING MANNEQUINS, WEST BRANCH,
NO. 72, WINTER 2013
I accidentally started waving to the mannequin.
Or mannequins really, but only one ever seemed to
wave back. The mannequin would be important to the
story, but I didn’t know that as I waved.
The mannequin belonged to my new neighbor,
Linda, but she would not be important to the story.
Except that she had a gun. I never saw it, but she
once told our other neighbor, Mitch, that she had one.
She told him about the gun after his dog somehow got
free and ran into her house. She said she would shoot
his dog the next time it came into her house. I believed

App.130a
her, and Mitch did too. She was the type of person
who would have a gun and shoot a dog. She liked cats.
I was living next to Linda with my husband and
two young sons. I was not the type of person who would
have a gun. I did have a dog, though, so I had a sixinch cement barrier poured along the fence that
separated Linda’s yard from mine, to make sure my
dog never got out. The last thing I needed was a dead
dog.
Linda actually owned three mannequins. I didn’t
realize there were so many until I found myself on
her porch one early summer afternoon, surrounded by
them. They were fully dressed, all in winter coats
despite the weather, seemingly having a tea party.
Two were seated together with porcelain teacups,
empty, in front of them. The other one was upright,
supported by a solid metal stand connected at her
torso. She was holding up one hand, seemingly in
friendly greeting to passers-by. The three mannequins
appeared to be having a conversation. I decided to
steal the standing one, the one to whom I had waved.
I stole the mannequin for my friend Deana.
Since I waved to the mannequin and confided that
small embarrassment to her, Deana and I joked about
stealing it. We would have to get drunk first (of
course), and then we would take her. It became a wellworn subject of conversation over the next several
years, yet there was never a clear understanding of
our intentions with respect to the mannequin once
we had her. But on the morning of the day the “For
Sale” sign was placed in Deana’s yard, the plan for
the mannequin suddenly crystallized, at least for me.
I would steal the mannequin and place her next to

App.131a
the “For Sale” sign in Deana’s yard. I would use the
mannequin to showcase the home, just like the models
on The Price is Right.
I knew she would move anyway, but by stealing
the mannequin for her, I hoped Deana would understand, in a way she otherwise might not, how much
she meant to me and how much I wanted her to stay.
Of course, I should have probably considered the
potentially deterrent effect of a mannequin, dressed
in full winter garb on a warm summer afternoon, on
a prospective home buyer. And probably I should have
also considered the related potentially detrimental
effect of the mannequin on the mood of Deana’s husband, should he discover it before she did. But I
didn’t consider either of these things, and instead, as
the morning wore on, I became more and more committed to my plan. So that by the time Linda was
leaving for her four-hour nursing shift in the early
afternoon, I had become convinced that there simply
could be no higher or better use for a mannequin.
A few months after I took the mannequin from
Linda’s porch, Deana would tell me that her husband
had pinned her against the carpet one winter night
in their new house. She said, “pinned against the
carpet.”
Although we had known each other for many years,
I did not understand until that moment that we were
living similarly secret, violent lives with our husbands.
And while I felt a deep connection to her as a result, I
did not feel strong enough then to offer her any support.
I had not been able to help myself by that point, so I
could provide no assistance to her. When, months later,
I could and asked her about it, she explained that she

App.132a
had only meant that her husband had her back against
the wall. As in figuratively. But being “pinned against
the carpet” is not the same as having your back against
the wall. It’s not the same at all really. If, as I was
surveying the mannequin tea party, I had known about
the carpet waiting out in the future for Deana to be
pinned against it, I would have understood (in a way
that many would not) that Deana would suffer too much
for my mannequin stealing, and I would have left the
mannequins to their pretend tea.
I suspect Deana’s husband was never really angry
about the mannequin per se, or really any other specific
or definable thing. Instead, I imagine that, like my
husband, he was simply angry with life, with anything
that disturbed the ordinary sameness of his days.
Deana would be pinned against the carpet, perhaps
not because of the mannequin itself, but rather for all
it threatened to disturb.
Deana was planning to move out of our old, wellestablished neighborhood to a new tract house in a
sprawling development about 20 miles away. She would
say that she was relocating so she and her husband
would have a bigger home in which to raise their two
growing boys. But I understood that she was moving
to try to get a fresh start, believing things would be
better with her husband simply by changing settings.
I had tried that too.
I understood then that she was also moving to
distance herself from her feelings for Rachel.
Deana had been living a few blocks away, in the
same neighborhood as us, for years, and my sons and
I had become accustomed to seeing her and her two

App.133a
sons—along with Rachel and her two sons—every few
days for late afternoon playdates and happy hours.
Rachel was also unhappy in her marriage,
although her unhappiness stemmed from different
issues than Deana’s or mine. Simply, Rachel’s husband
would never satisfy her spousal expectations. Specifically, he would never be financially successful or
provide her with vicarious stature in our small
community. Rachel, Deana, and I were all living similar
lives, though, in the sense that, despite the fact that
we were each unhappy in our marriages, we outwardly
appeared to be enthusiastic and cheerful young wives
and mothers.
Of our six boys, I had the youngest. But nearly
two years after I had given birth to my younger son, I
still had not yet shed the many baby-related pounds
associated with that pregnancy. During one late
afternoon playdate, while sitting in her kitchen,
Rachel disclosed her preference for wearing bikini
thong underwear. I laughed, assuming she was joking.
Registering her confusion at my laughter, Deana
explained to Rachel that neither she nor I would wear
bikini thong underwear because we both instead needed
“ample panties for full fannies.” Deana was funny
like that, and although she did not have some of the
physical attributes typically required for the label,
she was beautiful--but more in the way that someone
who makes you laugh is inescapably appealing.
Deana described herself as “big-boned,” and she
seemed comfortable with the idea that she would never
appear particularly thin. In contrast, it was important
to Rachel that she fit within the strict standards of
the beautiful label (and all other labels relevant to
social station). So, Rachel worked hard to maintain

App.134a
her appearance and corresponding image. She had
quickly lost her baby related weight and was the first
of us to trade in the elastic-waistbands of our sweat
pants and pajamas in favor of $180 low-rise, designerlabel jeans.
I was not “big-boned” and had instead been thin
and fit prior to the body ravaging that came from
pregnancy and breastfeeding. And so shortly after
my younger son turned two, I started an earnest
campaign to lose weight. Following Rachel’s advice, I
survived solely on protein bars and vanilla lattes for
nearly a year. Although it seems likely that I will
eventually die of a brain tumor as a result of my diet
that year, I lost so much weight so quickly that I was
able to start wearing my pre-pregnancy clothes again
before my younger son’s third birthday.
And it was soon after, one evening as the three
of us were walking to a rare dinner out, to a chic
sushi place in the heart of the downtown dating district,
that I began to strut my old body down the sidewalk.
I was finally feeling the smallest bit attractive again,
so it was exceptionally bad timing for Rachel to then
turn to me and say, “I have several pairs of jeans
that are way too big for me; would you like them?” I
stopped mid-strut, turned to her and said, “Thank
you, but sweetheart, I will never want your ‘fat jeans.’”
In a quick effort to mitigate the slight tension arising
from the exchange, Deana laughed, took each of us
by one arm, and turned us back in the direction of
the restaurant. The three of us walked together the
rest of the way, arms around each other.
Back then, for years before I stole the mannequin,
I thought Rachel, Deana, and I were in a three-way
best friendship. But Rachel and Deana called each

App.135a
other “sister-friends.” No one ever called me that. At
the time, I thought that was because each of them,
otherwise sister-less, understood that I, having four
actual sisters, was not in need of any more. But now
(and it seems so obvious), I understand it meant I
was not in any kind of three-way best friendship at
all. They were “sister-friends,” and I was not.
At some point, though, Deana fell in love with
Rachel. Rachel did nothing to discourage it, frequently
flirting with and teasing Deana during our late
afternoon playdates. Many times, sitting on one of
our respective couches, our boys playing together
either outside or in the basement, Rachel would kick
off her stylish ankle boots, lift her feet, put them in
Deana’s lap and say, “Will you rub my feet?” Deana
would push her feet away, saying, “No, rub your own
damn feet.” Laughing, Rachel would lift them back
up onto Deana’s lap and say, “Please, just a little.”
Deana would not rub her feet then, but she would not
push them away again either.
I didn’t blame them. For Rachel, I understood it
felt good to have someone like you that much, and for
Deana I understood it felt good to like someone that
much. Certainly, given my relationship with my
husband, I could understand the temptation. But I
pitied Deana then, as in, “Poor her. She is in love
with someone who will never love her back.”
As I struggled to get the metal stand loose from
the mannequin’s torso under the cover of Linda’s shaded
porch, I quickly understood that the task of stealing
the mannequin was going to be more difficult than I
first imagined. When I finally managed to break her
free from the stand, I realized she was taller than me

App.136a
by at least two inches, heavy, and quite difficult to
manage, particularly given her bulky winter clothes.
I would first need to make sure the coast was clear,
that no one would see me take the mannequin from the
porch and across my lawn to my backyard gate. I
considered the idea that I could simply act confident
about it, as though Linda had requested that I remove
the mannequins, one by one, from her porch that
afternoon. But then I remembered Linda’s gun and
decided a covert operation would be my best option.
I peeked around the porch column, and not
seeing anyone outside on our tree-lined block (so
unusual it could mean only that the universe wanted
me to take the mannequin at that moment), I decided
to make a break for it. I grabbed her around the waist
and ran, half-carrying, half-dragging her through
Linda’s weed-strewn garden and across my manicured
lawn. I leaned her against the fence as I fumbled with
the gate latch. As the gate sprung open, I grabbed her
and secreted her inside my backyard. I had never stolen
anything before, and the adrenaline rush was nearly
overpowering. As I was surveying the mannequin’s full
outfit in the safety of my backyard, I checked my
watch. I only had an hour before I had to pick up my
sons from their elementary school. I had to work fast.
Deana did not want to be in love with Rachel, of
course, but that didn’t change the fact that she was.
And it was likely that Deana was more afraid of Rachel
than in love with her. Sometimes, though, there is
such a close relationship between fear and love that
it is hard to tell the difference. At least it was for
both Deana and me. In significant part, our confusion
between the two kept us each in our respective unstable

App.137a
and destructive marriages. It also likely kept us in
our relationships with Rachel.
One late afternoon, Rachel and her sons arrived
at my house an hour earlier than our scheduled playdate with Deana. Sitting on a barstool at my kitchen
counter, Rachel started talking about a virtual
stranger, another mother with whom we were both
acquainted who was attracted (so obviously) to one of
the few stay-at-home dads we knew. Rachel intended
to inject herself into the relationship between the
virtual stranger and the stay-at-home dad, for no
reason other than to prove she could. As she explained
her plan, I said, “You’re a little bit scary.” She smiled
and said, playfully, “Do I really scare you?”
I told her that I thought she was safe. But I did
not think she was inherently safe. Never that. The
reason I thought she was safe in fact had nothing to
do with her. Instead, I knew what she was capable of,
or at least I thought I knew. And so armed with that
knowledge, I thought I could protect myself, in a way
that the virtual stranger could not. But what I did
not consider was what Rachel was capable of if she
was hurt. I never considered that, I think, because I
did not understand that she could be hurt. I never
considered that her hurt, in fact, would drive
everything. Given the truth of that, both Deana and I
should have been afraid.
Deana’s fear caused her to pull me--neck deep-into the threesome. For many years, I had been on
the periphery of their “sister-friendship.” I had also
been excluded from their “fun group,” which consisted
of weekly get-togethers with the two of them and their
sons. Fun group was a well-kept secret from me for
several years. However, over time, likely in direct

App.138a
correlation to her increasing depth of feelings for
Rachel, Deana started inviting me to fun group and
all other activities involving Rachel. I sometimes now
wonder what Rachel thought about that, if she
understood that pulling me in was a defensive move
on Deana’s part. It hardly matters now, but I sometimes
still wonder.
As I was about to load the mannequin into my car,
I considered that Deana’s house was on Seventeenth
Avenue, a busy street. I decided that pulling the
mannequin out of the passenger side of my SUV would
afford better cover than removing her from the back.
I put her in the car, lying across the rear seat,
covering my younger son’s booster. But as I tried to
close the door, I found her feet and high heels were
blocking it. I quickly readjusted her, slanting her
more sideways on the back seat. Although I heard a
small pop, I pushed the door closed with force and
drove to Deana’s.
The small sound was not insignificant, though,
as I discovered in removing the mannequin from my
car. As I was lifting her from the backseat, she came
apart at her midsection. On Seventeenth Avenue, with
traffic speeding by, I found myself holding only the
top half of the mannequin. I looked over her shoulder
into the backseat. She had been wearing a housedress
of some kind underneath her coat, which when removed
with her torso left the lower half of her body completely
naked, save for her red high heels. I was holding her
upper body, awkward with heavy clothing, trying to
determine my next move. In retrospect, my next move
should have been to put the top half of her back in
my car and speed away. But you never do what you
should have done in retrospect.

App.139a
Instead, I pulled the top half of the mannequin,
dragging her by her armpits along the ground as if
rescuing her from a burning aircraft, to the “For
Sale” sign planted in Deana’s lawn. I quickly ran
back to retrieve the rest of her from my back seat. As
I was sitting on Deana’s lawn with the two halves
displayed before me, and as cars were starting to
slow down as they passed to assess the scene, I decided
to change my approach from covert to confident. I
started acting like I was supposed to be on Deana’s
lawn lifting the housedress of the mannequin to better
calculate how to reassemble her. I acted with assurance
as I picked up her naked lower body, turned her at a
ninety degree angle to match up the latching system
at her mid-section and twisted her body back together.
I calmly stood her up next to the sign, smoothing out
her dress and coat and adjusting her winter hat.
She started to tip over, but I righted her quickly.
Only when she started slumping over again did I
notice I had attached her together backwards, with
her feet pointed 180 degrees from the direction of her
sharp, pointy breasts. She was unstable, but I had no
time to fix her. After propping her up a final time, I
calmly walked back to the car, got in, and went to
pick up my sons from school.
It is important to say that, a short time after I
stole the mannequin for Deana, I slept with Rachel.
It seems like I should admit that, even though we
didn’t do everything there was to do. I’m not sure
what to call it if I don’t say that we slept together.
We hooked up, we messed around, in a bed, and then
we fell asleep. But there was no penetration, if that’s
the standard. I have no idea what the standard is.
Whatever it was, I want to say I slept with her so

App.140a
that there is no question about what it is that I
should be ashamed of. It was a betrayal of Deana,
and I don’t want to try to minimize it now by
pointing to everything we could have done but did
not do.
Rachel was married, yes, and I was also married,
yes, and of course I know I should feel bad because I
slept with Rachel under those circumstances. But for
many reasons, I don’t. But I could not feel worse
about sleeping with Rachel given how Deana felt about
her. It was not a kind friend-thing to do.
Of course, I want to get some credit for saying,
for being able to pull away from Rachel long enough
to say, “We shouldn’t do this. We need to stop.” I
want there to be some appreciation for how hard that
was to do, would have been for anyone to do, to stop
kissing her then. And when Rachel, smiling and pulling
me back, asked, “Oh yeah, why?” I also want to get
credit for saying, “Deana.” And I want even more credit
for not then also saying, “Because Deana is in love
with you.” I will not get credit for any of these things,
though, because when Rachel answered, “We can’t think
about her now,” and pulled me back again, I simply
shrugged (because her statement seemed so logical)
and slept with her anyway.
So there will be no credit given, and instead,
there will be a consequence for my betrayal. And there
should be, I know, as much as I don’t want to deserve
one.
As the afternoon went on, Linda’s usual four-hour
nursing shift seemed entirely too short. Finally, my
phone rang. It was Deana’s ringtone, the Heartless
Bastards’ “All This Time.” I assumed Deana was calling

App.141a
to acknowledge my incredible mannequin feat. But
instead, she simply explained she had left work to
pick up her sons from school and wanted to come over
for an afternoon playdate and a drink. “Okay,” I said,
which is what I always said. I was hoping she would
drive by her house on the way to mine, but after I
opened the door and let her and her sons in, it was
clear she had not yet seen the mannequin.
The next call came from Rachel, her ring The High
Strung’s “She’s Not Even Mad at You,” also asking to
bring her sons over for a playdate. “Okay, but here’s
the deal and I may need help.” I quickly explained
the situation. She said only, “We’ll see you in five.”
The first hour or so of the playdate was uneventful,
but as it got closer and closer to 5:30, when Linda
was scheduled to return home, I grew more and more
concerned about the mannequin. And the gun. Rachel,
who was sitting next to Deana at my kitchen counter
and less than three feet away from me, started texting.
She asked me, “What’s your plan?” I texted back, “At
a minimum I will need to deliver a ransom note next
door very soon.” Rachel looked over at her phone
casually, but then as she read the text she laughed
out loud. And admittedly the whole situation was funny,
but I was becoming increasingly distressed and my
sense of humor was waning. Stealing the mannequin
was the worst thing I had ever done, but I didn’t
want to get shot for it.
And then Deana’s husband called her. He had no
special ringtone. He told her that their neighbor had
called him about a “body” in their front yard and she
should go home to meet the police whom he planned
to call next.

App.142a
In a moment that should have informed everything
that followed, Rachel said, “Well, we better get going”
She was out of the house, with her sons, within two
minutes.
I started waving at Deana, who was still on the
phone with her husband, and quickly said, “It was
me. It’s the mannequin. It was a joke.” Deana smiled,
then looked stricken as she listened to her husband
rant. I understood then, at 5:15, that I had to go
retrieve the mannequin immediately, before Deana’s
husband or the police arrived at the scene (my
fingerprints being all over even the most private
parts of the mannequin), and before Linda came home
to her gun. I left Deana in my house, futilely trying
to explain the humor of the mannequin to her husband,
as I ran to my car.
Unfortunately, my eight-year-old son was following
closely behind me asking, “What’s wrong Mama? Where
are you going?” And in my most proud mothering
moment to date, and not having the time to try to
convince him to stay with Deana for five freaking
minutes, I said, “Hurry, get in the car! Get in the car!
We have to go get something I took and put it back
where I found it right away.” And of course, he had a
million questions on the three-minute car ride to
Deana’s house, which were mostly just variations of
“Isn’t stealing against the law?” and “What were you
thinking?”
By stealing the mannequin for Deana, I disturbed
a delicate and unstable balance of emotions running
between the three of us. Certainly, Rachel would deny
being hurt by my juvenile prank. But it must have
signaled something significant to her, maybe how much
I cared about Deana, maybe how Deana and I had

App.143a
developed a friendship independent of her. It was an
alliance which Rachel could not abide.
At the time I stole the mannequin, I did not
understand that doing so would undo the fragile connection holding our threesome together. I only
understood that later, after I slept with Rachel.
It is a fair question, why Rachel slept with me
instead of Deana. The shortest and easiest answer is
that Rachel was not attracted to Deana. Because she
was not attracted to her, it was safe for Rachel to
flirt with and tease Deana, to keep her engaged for
the game, and ego, of it. However, over those years
Rachel did become attracted to me. And I to her. Of
course, I hate to admit that now.
Because Rachel was attracted to me, she would
disrupt the friendship developing between me and
Deana by sleeping with me. I realize it is somehow
worse, that I slept with Rachel only because I wanted
to, without having any other good reason for it. But I
think it is also somehow better.
As I pulled up and saw the mannequin lying face
and ass down in Deana’s yard, I told my son to wait
in the car. I ran to get her, and as I struggled to carry
her under my arm back to the car, my son, thoughtfully,
opened the back hatch for our getaway. I heaved her
inside and sped back home. It was 5:25. I pulled into
our garage, and leapt out to open the back. I grabbed
her and ran to our backyard gate. As I opened the
gate and quickly assessed the risk of witnesses
(minimal enough), I ran across my front yard with
the mannequin in the direction of Linda’s porch. My
son was trailing just behind me, still insisting on
answers to his questions about the legalities of it all.

App.144a
As I was running back to the porch, the mannequin
somehow lost her hat and wig. I started pleading with
my son, frantically, “Please, will you just grab the
hair? Grab the hair!” And he did because he is a good
boy and he loves me. He had become my accomplice.
We put the mannequin back on her stand on Linda’s
porch, and we agreed that stealing was a very bad
idea.
Shortly after I slept with her, Rachel would point
to my mannequin stealing as the first evidence that I
had become emotionally unbalanced and was not acting
“right.” Rachel would need for me to be seen as not
acting right. To Rachel then, I suddenly became all of
the things she was most afraid of being. If I was
unstable, she was not. If I was the lesbian, then she
didn’t have to be. If I was a bad mother, she could
finally be a good one. Stealing the mannequin had
been a joke, of course. But because I stole the mannequin for Deana, Rachel would even eventually cite it,
in the custody battle that ensued with my husband
as we were divorcing, as evidence that I had involved
my son in criminal activity.
Rachel likely felt hurt, first by the close friendship
developing between me and Deana, and later as a result
of her confused feelings about me. With respect to the
latter, to be fair, it is also likely that she felt scared.
But for Rachel, any uncomfortable feeling, whether
fear or hurt or otherwise, would only ever come out
as anger. Don’t ask me why this was so. There are
simply people like this.
In her anger, Rachel commenced my undoing. It
started seemingly unprompted one day, when she
appeared to avoid talking to me. Thereafter, her efforts
to evade me became undeniable as she started to act

App.145a
like I intended to set her on fire, routinely moving in
the opposite direction whenever I approached. I
imagined from the outside, if anyone had been paying
attention (which no one ever does), that we looked
like opposing magnets, always moving together but
staying the same distance apart at all times. I slowly
noticed that other people too, once friendly, had
started to avoid me. It took me some time to figure
out what was happening. My delay was in some part
attributable to my unwillingness to believe that I
was expendable, hat I offered nothing, friendship or
otherwise, that she was not willing to sacrifice. Denial seemed to provide me the only viable form of selfprotection.
It is interesting what people don’t tell you. No
one will ever say, “By the way, Rachel says you are a
criminal and a lesbian and unstable and a bad mother.
Do you have any comment?” Instead, the mere nature
and audacity of the accusations are such that no one
will ever repeat them to you. And that makes them
indefensible, and will leave you undefended. But I
need to stop here, because this is not a story about
Rachel. This is a story about Deana.
The only person who would understand how unfair
the allegations were, how wrong, was Deana. Deana
was the only person who could reasonably explain that
stealing the mannequin had been a joke and thus did
not itself establish a newly emerging mental illness.
Without Deana to defend me, though, there would be
only one thing I could say that could reasonably explain
the motivations behind Rachel’s claims. But that would
mean telling the truth about my relationship with
Rachel in the midst of my custody battle with my
husband. And it would also mean telling Deana.

App.146a
I had wanted to tell Deana what happened from
the beginning, from the first night in Rachel’s bed. It
felt like too big of a secret, too big of a betrayal, to
keep from her, and it felt too difficult for me to
manage alone. So I had asked Rachel, as I was getting
up to leave her bed, “How are we going to tell Deana?”
I don’t know what I expected Rachel to say then, but
making direct eye contact and giving me a look equal
parts distress and disdain, she said, “We are not
telling Deana.” I did not agree or disagree, but when
she asked me to lie back down with her, I did.
It was not until months later, after 10,000 opportunities to tell Deana had come and gone, that I
finally told her. When, very late one night on the
telephone, it happened that Deana was again speculating about Rachel’s change in behavior towards me,
her theories so pathetically off-base and ill-informed,
I finally felt compelled to help her understand.
Deana was saying, “I don’t know, maybe it’s because
she thinks that you’re acting like a ‘bitchy sister,’ or
maybe . . . ” I cut her off, “No Deana, I am not acting
like a ‘bitchy sister’ or anything else. Rachel is acting
so fucking weird because she’s freaked out that we
hooked up.” Silence. “What?” Deana asked quietly. It
was a fair question, and there was no going back. I
said, “All of this shit is happening because we hooked
up.” And she asked the only other questions that she
would ever ask me about it, “How long ago did it
start? Was it about two years ago?” Her time reference confused me then and still does, but I answered,
“No, it only happened last summer.” And I said, “I’m
sorry I didn’t tell you before now. I know I should
have.”

App.147a
I thought then that if there was anyone in the
world who would understand the nature and extent of
the trouble I was in, it would have been Deana. But
in mistaking her feelings for mine, she only accused,
“You’re in love with her.” And what I thought then
but did not say was, “I know you are, but what am I?”
Instead, I said, “No, Deana, I am afraid of her.” She
said she had to hang up then. And with that, our
friendship was over.
Deana was never angry at Rachel because she slept
with me. Deana had always been afraid that Rachel
would hurt her. She was emotionally prepared for that.
In contrast, though, Deana trusted me. It was the
same way I felt about her. And what we both learned,
nearly simultaneously, was that although it is very
painful when someone you love hurts you, it breaks
your heart only when someone you trust does.
Because I had broken her heart, Deana was not
inclined to defend me against Rachel’s allegations.
The fact that she did not was even more shocking and
hurtful than the allegations in the first instance, and
in turn unfairly lent the accusations some credibility.
And it wouldn’t matter to Deana that I was sorry.
She would never forgive me. And so she would never
help me, no matter how high the stakes. To Deana then
also, I was expendable. I became lost in the idea that
I was worth so little to people I valued so much.
I still get lost in every part of that.
Sometimes I think this way: I know that the
consequences of breaking Deana’s heart should be
significant. But what if, by sleeping with Rachel, I
saved Deana from being the one to sleep with her
(which Deana would have, my name likely not coming

App.148a
up at all)? And what if I saved Deana from facing the
consequences of sleeping with Rachel, which would
obviously turn out to be quite severe? Shouldn’t these
things be factored into the analysis of what punishment
I deserved? And wasn’t it enough that I didn’t get (or
take) the girl? Did I really deserve to have my life
ruined? And admittedly, it could have been worse. I
could have lost custody of my sons. And although I
didn’t, I lost nearly everything else as a result of
Rachel’s accusations. It occurs to me now that I might
rather have been shot.
I know it is pointless to think this way, but
sometimes I still do.
In the end, it would be Rachel who would take
Deana from me. Rachel and Deana would remain
friends, and my consolation always would be only that
it is an unstable friendship, forever put together ass
backwards. It was built mostly of fear rather than
love, and it would always be that way. And even with
all the time in the world, there would be no way to fix it.

